<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 2021</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



   STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                                  2021

_______________________________________________________________________
_______________________________________________________________________


                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SIXTEENTH CONGRESS

                              SECOND SESSION

                                ___________

                SUBCOMMITTEE ON STATE, FOREIGN OPERATIONS,
                          AND RELATED PROGRAMS

                   NITA M. LOWEY, New York, Chairwoman

  BARBARA LEE, California
  GRACE MENG, New York
  DAVID E. PRICE, North Carolina
  LOIS FRANKEL, Florida
  NORMA J. TORRES, California

  HAROLD ROGERS, Kentucky
  JEFF FORTENBERRY, Nebraska
  MARTHA ROBY, Alabama

  NOTE: Under committee rules, Mrs. Lowey, as chairwoman of the full 
committee, and Ms. Granger, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

     Steve Marchese, Craig Higgins, Erin Kolodjeski, Dean Koulouris,
       Jason Wheelock, Jean Kwon, Marin Stein, and Clelia Alvarado
                            Subcommittee Staff

                                ___________

                                  PART 3

                                                                   Page
  Department of State, Foreign 
Operations, and Related Programs........
                                                                      1
  United States Agency for International 
Development.............................
                                                                      3
  Export and Finance Agencies...........
                                                                     83
  U.S. Department of the Treasury 
International Programs..................
                                                                    167

                                   

                   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                ___________

          Printed for the use of the Committee on Appropriations

                   
                   U.S. GOVERNMENT PUBLISHING OFFICE

43-523                      WASHINGTON : 2021







                      COMMITTEE ON APPROPRIATIONS

                  NITA M. LOWEY, New York, Chairwoman

MARCY KAPTUR, Ohio                   KAY GRANGER, Texas
PETER J. VISCLOSKY, Indiana          HAROLD ROGERS, Kentucky
JOSE E. SERRANO, New York            ROBERT B. ADERHOLT, Alabama
ROSA L. DeLAURO, Connecticut         MICHAEL K. SIMPSON, Idaho
DAVID E. PRICE, North Carolina       JOHN R. CARTER, Texas
LUCILLE ROYBAL-ALLARD, California    KEN CALVERT, California
SANFORD D. BISHOP, Jr., Georgia      TOM COLE, Oklahoma
BARBARA LEE, California              MARIO DIAZ-BALART, Florida
BETTY McCOLLUM, Minnesota            TOM GRAVES, Georgia
TIM RYAN, Ohio                       STEVE WOMACK, Arkansas
C. A. DUTCH RUPPERSBERGER, Maryland  JEFF FORTENBERRY, Nebraska
DEBBIE WASSERMAN SCHULTZ, Florida    CHUCK FLEISCHMANN, Tennessee
HENRY CUELLAR, Texas                 JAIME HERRERA BEUTLER, Washington
CHELLIE PINGREE, Maine               DAVID P. JOYCE, Ohio
MIKE QUIGLEY, Illinois               ANDY HARRIS, Maryland
DEREK KILMER, Washington             MARTHA ROBY, Alabama
MATT CARTWRIGHT, Pennsylvania        MARK E. AMODEI, Nevada
GRACE MENG, New York                 CHRIS STEWART, Utah
MARK POCAN, Wisconsin                STEVEN M. PALAZZO, Mississippi
KATHERINE M. CLARK, Massachusetts    DAN NEWHOUSE, Washington
PETE AGUILAR, California             JOHN R. MOOLENAAR, Michigan
LOIS FRANKEL, Florida                JOHN H. RUTHERFORD, Florida
CHERI BUSTOS, Illinois               WILL HURD, Texas
BONNIE WATSON COLEMAN, New Jersey
BRENDA L. LAWRENCE, Michigan
NORMA J. TORRES, California
CHARLIE CRIST, Florida
ANN KIRKPATRICK, Arizona
ED CASE, Hawaii

                Shalanda Young, Clerk and Staff Director
                
                
                
                
                            C O N T E N T S

                              ----------                              

                               Witnesses

                                                                   Page
Boehler, Adam, Chief Executive Officer, U.S. International 
  Development Finance Corporation................................   106
    Prepared statement...........................................   108
    Answers to submitted questions...............................   143
Green, Hon. Mark, Administrator, U.S. Agency for International 
  Development....................................................     5
    Prepared statement...........................................     8
    Answers to submitted questions...............................    48
Hardy, Thomas, Acting Director, U.S. Trade and Development Agency    86
    Prepared statement...........................................    89
    Answers to submitted questions...............................   130
Mnuchin, Hon. Steven, Secretary, Department of the Treasury......   169
    Prepared statement...........................................   171
    Answers to submitted questions...............................   190
Reed, Kimberly, President and Chairman, Export-Import Bank of the 
  United States..................................................    95
    Prepared statement...........................................    97
    Answers to submitted questions...............................   160

                           Submitted Material

Fortenberry, Hon. Jeff, a Representative in Congress from the 
  State of Nebraska, letter of June 20. 2019 to Gene Dodaro, 
  Comptroller General, GAO.......................................    81



 
STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 2021

                              ----------                              


THE DEPARTMENT OF STATE, FOREIGN OPERATIONS AND RELATED PROGRAMS BUDGET 
                      REQUEST FOR FISCAL YEAR 2021

    [Clerks Note: Secretary of State Mike Pompeo did not make 
himself available to present the Fiscal Year 2021 Budget 
Request for the Department of State, Foreign Operations and 
Related Programs to the committee.]
                                             Tuesday, March 3, 2020

 UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT BUDGET REQUEST FOR 
                            FISCAL YEAR 2021

                                WITNESS

HON. MARK GREEN, ADMINISTRATOR, UNITED STATES AGENCY FOR INTERNATIONAL 
    DEVELOPMENT

             OPENING STATEMENT BY CHAIRWOMAN LOWEY

    The Chairwoman [presiding]. The Subcommittee on State, 
Foreign Operations, and Related Programs will come to order.
    Administrator Green, thank you for joining us today. I 
really do want to thank you for your stewardship of USAID 
during very difficult times, and for the dedication of our 
development professionals. USAID helps the world's most 
vulnerable, assists in recovery from natural disasters and 
humanitarian crises, and supports countries' efforts to 
strengthen governance, rule of law, and human rights. This 
isn't just the right thing to do. It strengthens our national 
security and advances American interests.
    And you certainly have your work cut out for you. There are 
more than 70 million refugees and displaced people around the 
world, which is fueled by conflict, natural disasters, and 
climate change. Ebola continues to simmer in the Democratic 
Republic of Congo, while the novel coronavirus outbreak 
threatens to become a pandemic. Despite significant progress on 
our development priorities, we are currently off track to meet 
the U.N. Sustainable Development Goals by 2030. Our development 
and humanitarian efforts are our best hope to tackle these 
issues. This is why Congress has disregarded this 
administration's last three budget requests, instead providing 
sufficient resources to effectively and efficiently fund some 
of our most critical foreign policy priorities.
    The administration's fiscal year 2021 budget request 
includes funding for several development initiatives that we 
support, such as women's economic empowerment, investments to 
strengthen emerging private sectors, and global health 
security. However, the administration cannot be successful in 
these initiatives if we under or defund the basics, which is 
exactly what the proposed 20 percent cut to our foreign 
assistance programs would do. For example, if enacted, this 
request would cut basic education by 66 percent and family 
planning by 59 percent. Now, the administration certainly 
cannot seriously believe that millions of women can achieve 
economic empowerment if they are unable to read, write, do 
math, or control the timing and number of children they have.
    Any benefit from an increase in global health security 
would surely be offset by the proposed 34 percent cut to all 
other global health programs. Instead of requesting funding and 
implementing policies to ensure USAID can be successful, the 
administration seems intent on putting every possible barrier 
in your way. This is certainly true of the expansion of the 
Global Gag Rule, the Kemp-Kasten determination against UNFPA, 
and unfair stigmatization of multilaterals as wasteful and 
working against U.S. interests.
    The administration's multiple policy reviews have also led 
to program delays and suspension of assistance. This 
subcommittee has always believed that our national security is 
strongest when defense, diplomacy, and development are equally 
funded. Without robust funding for development and humanitarian 
programs, the U.S. will fail to maintain our position as a 
leader on the global stage. This will not only harm the world's 
most vulnerable, it puts U.S. lives at risk and reduces our 
influence. We cannot and will not allow this to happen.
    So, again, I want to thank you for testifying today, and I 
look forward to your discussion and our discussion. And before 
we move to your testimony, let me turn to Mr. Rogers, the 
ranking member, who is committed to these issues and has worked 
very hard as a partner. Please go forward with your opening 
statement. Thank you.

           OPENING STATEMENT BY RANKING MEMBER ROGERS

    Mr. Rogers. Thank you, Madam Chair, and welcome, Mr. 
Ambassador. We appreciate your being here to discuss the budget 
and the spending plans and a review of your work at the Agency. 
Let me start by once again acknowledging the good work that you 
are doing at USAID and the collaborative manner in which you do 
it. These are not easy times to be engaged in international 
development. The challenging operating environments from 
insecurity continue to mount as do the needs of those we aim to 
help.
    I salute your dedicated cadre of development professionals 
that too often are working in or near very dangerous 
circumstances. Your leadership and experience, especially 
having served as an ambassador, and, coincidentally, in this 
body, comes at a critical time because you are already keenly 
aware of the risks our Foreign Service officers face in 
carrying out their duties. In these uncertain times, I want you 
to know that I am grateful for your leadership at USAID, and 
you have my support for whatever that means.
    Turning to the matter at hand, the President's budget 
request for fiscal 2021 is nearly a 20 percent cut from the 
fiscal 2020 enacted budget. I suspect this proposed cut will be 
handled in a manner similar to prior years. I look forward to 
working with the chairwoman in the weeks ahead on a bill that 
provides more appropriate levels of funding to address the 
serious global challenges that we are confronted with this 
year.
    However, there are a few notable improvements in parts of 
the budget that deserve mention, including prioritized funding 
for the Indo-Pacific Strategy, countering Chinese, Russian, and 
Iranian malign influence, and a focus on strengthened 
engagement with the private sector. I hope you will address 
these topics as we go along this morning, as well as how you 
see the role of USAID in Afghanistan as we enter this new 
chapter of our engagement there. I am also interested to hear 
more about how USAID has and will respond to the coronavirus 
outbreak. As you know, we have been working hard on a 
supplemental appropriations bill to help in this regard, and I 
hope and trust we will pass that through the House this week.
    I was chairman of the full committee when we worked on the 
Ebola outbreak in West Africa and also when Zika hit. Having 
shepherded the supplementals to address those outbreaks through 
the Congress, I knew when I became chair of this subcommittee 
that I wanted to create a pot of funding that could be tapped 
quickly to address an emerging health threat abroad. That is 
how we ended up with the emergency reserve that you were able 
to draw from last week for your initial response. I am sure 
that the months ahead will not be easy in combatting this 
current outbreak, but I hope you will keep us informed and let 
us know what we can do to help in this global effort.
    There are more priorities that I will address when it comes 
time for questions. So in closing with this opening statement, 
let me once again thank you and the men and women of USAID for 
your hard work and your commitment to service. We thank you. I 
yield.
    The Chairwoman. Thank you, and I will be calling on members 
based on seniority of the members that were present when the 
hearing was called to order. I will alternate between majority 
and minority, and each member is asked to keep their questions 
to within 5 minutes per round. But first, Administrator Green, 
we will be happy to place your full testimony into the record. 
If you would like to proceed by summarizing your oral 
statement, that would be fine. Proceed as you wish, and I want 
to make sure you leave enough time to get to everyone's 
questions. Thank you.

             OPENING STATEMENT BY AMBASSADOR GREEN

    Mr. Green. Thank you, Madam Chair, Ranking Member Rogers, 
and members of the subcommittee. I do welcome this opportunity 
to summarize my testimony, but also to express my appreciation 
for your ongoing support, particularly for the men and women 
professionals of USAID all around the world. As you have noted, 
they are working often in very trying circumstances.
    The President's fiscal year 2021 budget requests 
approximately $19.6 billion for USAID. It is an effort to 
balance fiscal responsibility here at home with our leadership 
role and national security imperatives on the world stage. I 
would like to begin by discussing some of the latest 
developments on a few of our more pressing issues, like the 
DRC, where USAID continues to lead the U.S. government's 
response to the Ebola outbreak. There is solid progress to 
report. There were no new confirmed cases last week, the first 
time that has happened since the response began. To be clear, 
the outbreak is not over. Ongoing security threats could still 
unravel the progress, but, nonetheless, there is reason to be 
optimistic.
    Of course, one of the administration's very highest 
priorities is taking on the threat posed by the coronavirus. 
Last month, Secretary Pompeo announced that the U.S. government 
will contribute up to $100 million to help stem the spread of 
the disease internationally. That includes $37 million, as was 
referenced, from USAID for work in affected countries. These 
resources are at work in a range of activities, including 
surveillance, lab testing, and public messaging campaigns. We 
are also sending out personal protective equipment to a number 
of countries. There is still much we don't know about the 
disease, but it is worth noting that USAID has invested more 
than $1.1 billion in global health security since 2009. Those 
investments have helped improve the capacity to prevent, 
detect, and respond to emerging disease threats like the 
coronavirus.
    From natural crises to manmade crises, there is Yemen, in 
many ways the world's largest humanitarian disaster. 
Interference by the Houthis has forced us to plan for a partial 
suspension of programs in the country's north, the harassing of 
aid workers and imposing numerous obstacles to service 
delivery. We cannot tolerate our assistance being impeded or 
diverted. The Houthis must take action to end the interference, 
or else we will be forced to limit where and what we provide.
    In northwest Syria, recent operations by Syrian and Russian 
security forces have displaced nearly 1 million from Idlib and 
Aleppo. A recent Security Council decision means, in effect, 
that U.N. agencies can no longer use one of the only three 
entry points into northeastern Syria, dangerously constricting 
our humanitarian lifeline.
    On a brighter note, last October, USAID signed its first 
bilateral agreement with Venezuela in decades. It enables us to 
expand our support to independent media, civil society, the 
National Assembly, and the government of Interim President Juan 
Guaido. It will also allow us to provide additional support 
once a democratic transition occurs. The request for Venezuela 
includes $205 million from ESDF and Global Health funds for 
that important work. We are all hopeful that we get to that day 
when such funds can be expended and invested.
    On a related note, I want to thank the subcommittee for its 
support of our work in Colombia. The visit by your staff to our 
mission was deeply appreciated by our teams there.
    In the Sahel, security conditions continue to deteriorate. 
The U.N. estimates in Burkina Faso, for example, 4,000 people 
have been displaced every single day since the year began. 
USAID is providing humanitarian assistance to those in need, 
trying to help stabilize violence-affected areas, and also 
counter extremist messaging.
    I want to take a moment and highlight two successes as we 
talk about some of the challenges. There are great 
opportunities and progress that we can report on. In India, we 
hope to soon welcome the establishment of a new U.S.-India 
Development Foundation that will enable us to serve in a more 
catalytic role, and help the government more effectively 
mobilize domestic resources towards areas of ongoing need. In 
Albania, there is similar progress. Prime Minister Edi Rama 
told me last November Albania doesn't need more money. It needs 
more technical assistance and knowledge as it takes on 
corruption. We hope to soon see a U.S.-Albania Transparency 
Academy, which will help foster a culture of transparency and 
accountability in the country's governing institutions.
    Our ongoing work to bring transformation to the Agency is 
becoming more tangible than ever. With your support, we have 
now legally established the Bureaus for Resilience and Food 
Security, Humanitarian Assistance, and Conflict Prevention and 
Stabilization. We hope they will soon be joined by the proposed 
Bureau for Policy, Resources and Performance, the concept note 
for which it is still waiting congressional concurrence. It is 
the most important remaining piece of our transformation, and I 
look forward to continuing to work with you to answer any 
questions that you might have.
    Religious freedom isn't merely an American value, as we all 
know. It is a human right. Sadly, religious plurality and the 
freedom to openly practice one's faith remains under threat in 
many countries. We are continuing to support communities in 
northern Iraq and across the Middle East as they recover from 
ISIS brutality. The request includes $150 million to maintain 
and expand that work. We use those resources to assist 
communities of all faiths that face discrimination or 
persecution wherever it occurs.
    We are also committed to helping countries struggling to 
provide high-quality education for their children and youth. 
Madam Chair, given your announced retirement plans, I wanted to 
take a moment to offer a note of admiration. Throughout your 
time in Congress, you have promoted the transformative power of 
education. You have also paid special attention to children 
living in conflict and crisis situations, and you have worked 
tirelessly to provide them with access to educational services. 
Your work has created tools and rallied resources that provide 
hope and regeneration at great risk. You may be stepping away 
from Congress, not yet, but your legacy will live on through 
the millions of people whose lives you have lifted. It is only 
one of the reasons you will always be my favorite Jewish 
mother.
    Members, I appreciate your support, your guidance, your 
counsel. And, Madam Chair, again, it has been an honor to 
appear before you. Thank you, and I welcome your questions.
    [The prepared statement of Ambassador Green follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. Well, thank you very much, Mr. Ambassador. 
First of all, I appreciate your very kind words. As you know, 
this has been really an opportunity to serve and to do many 
good things, and it has really been a special opportunity for 
me to work with you. We are fortunate to have a person with 
your integrity, your commitment, and your knowledge in this 
position, and there are still many more months left. We could 
do a lot of things together. So thank you again for your kind 
words.
    Now, I have many concerns as does this committee----
    Mr. Green. So much for the efforts. [Laughter.]
    The Chairwoman. So I will begin with Afghanistan because it 
has been 17 years, I believe. Isn't that correct? I am very 
concerned that the recently-signed peace agreement with the 
Taliban could undermine the more than $30 billion this 
subcommittee has provided since 2002 to help promote the rights 
of women and girls, strengthen institutions for good 
governance, and increase access to quality education. Now, 
under the peace agreement, can you share with us what is 
USAID's role? Will our programs continue? Will there be any 
significant changes to USAID programming or presence? I have a 
second part, but I will let you respond to the first.
    Mr. Green. Thank you, Madam Chair. I can't tell you that I 
know all the terms of the peace agreement yet, and obviously we 
are the front end of it. I think Secretary Pompeo has put it 
very well. We are at the moment of opportunity for the people 
of Afghanistan and their leaders. What I can tell you from the 
USAID perspective is that in addition to focusing on the 
conditions necessary for peace and applying the lessons that we 
have learned from these years, we are dedicated to implementing 
the goals in our country's strategy, including women's 
empowerment and educational opportunity, particularly higher 
education opportunity.
    As we have spoken many times, the future of Afghanistan, 
the sustainable, bright future for Afghanistan, is dependent 
upon increasing the role of women in the economy, in community 
leadership, and obviously that is very hard to do if those 
educational opportunities go away. So we continue to be 
dedicated to those goals.
    The Chairwoman. Now, can you assure us that the investments 
made to strengthen the rights of women and girls and increase 
access to education can be maintained? For example, the 
subcommittee has demonstrated strong bipartisan support for the 
American University in Afghanistan. Will our assistance to AUAF 
continue under the peace agreement?
    Mr. Green. Let me break that apart, if I can, into two 
pieces. First, in terms of overall the goals that we have 
shared, women's empowerment and educational opportunity, what I 
can guarantee for you is that we will continue to pursue those 
goals. We can never guarantee the outcomes. We can guarantee 
the effort. With respect to AUAF, as we have talked about 
before, AUAF has been operating under an extended cooperative 
agreement, the terms of which run out in May. However, they 
have been granted a no-cost extension, which takes them into 
the summer, and they have been invited to compete for 
competitive funding, which is out there. It is procurement 
sensitive, and I am not even sure of all those who have 
applied. But I can tell you that the goals of higher 
educational opportunities remain as important to us today as 
they ever have been.
    The Chairwoman. I just wonder if the administration, in 
orchestrating this peace agreement, is consulting with you at 
all. Are they looking for any assurance that there may be 
actions that have to be put in place to preserve the 
extraordinary progress that has been made? Have you been part 
of any kind of discussions?
    Mr. Green. What I can tell you is that we have staff who 
have been assisting our special envoy. So we have certainly had 
the opportunity to express or to remind diplomatic 
representatives of the work that we have all been doing. And I 
know in the brief conversations that I have had, that there is 
very much the sense that the work that we have been performing 
over the years has made a difference and is worth continuing to 
pursue. What precisely it looks like in the months and years 
ahead, I don't know for certain. I do know that we are going to 
continue to pursue that same strategy and those same goals that 
we have been talking about for some time.
    The Chairwoman. Thank you very much. I look forward to 
continuing that dialogue. I would like further assurance that 
these programs will continue. Mr. Rogers?
    Mr. Rogers. Thank you, Nita.
    Mr. Rogers. Colombia, our anchor, our best partner in the 
region. A secure and stable Colombia is vital to our own 
national security. In fact, Presidents Trump and Duque met just 
yesterday at the White House, but they need our help. There is 
no doubt about it. They are being swamped by a mass exodus from 
Venezuela, their neighbor. I am told that there are now 4\1/2\ 
million Venezuelan refugees and migrants living abroad, 
including 1.7 million in Colombia alone, a reported 2,000 
refugees crossing the border every day. Are those numbers 
accurate?
    Mr. Green. As far as we know, those numbers are accurate, 
and they are projected to go to as high as 6 million by the end 
of this year.
    Mr. Rogers. Well, the President is almost desperate, Duque, 
in his request for help. Ongoing political, human rights, and 
socioeconomic developments in Venezuela compel growing numbers 
of children, women and men to leave for neighboring countries 
within Latin America and the Caribbean, and, of course, they 
share a very long border with Colombia. Is there extra help 
that we can get to them to deal with this growing problem?
    Mr. Green. Congressman Rogers, I think you have put your 
finger on it very well because it is two different things. So 
there is the support that we continue to provide for both 
Venezuelans, who are residing in Colombia and have gone 
throughout the region, as well as support for the host 
communities as they deal with the burden of those migrants who 
have come over. But separately, it is also important for us to 
deal with Colombia as our close ally and their own development 
challenges.
    And so we have invested heavily in some programs that I 
know President Duque is extraordinarily pleased with and very 
supportive of. For example, he often points to a land titling 
project we did. I used to be a real estate attorney. Nobody 
ever thanked me for title work before, but the work that we 
have done in a city of 1 million people in Colombia created the 
first-ever fully titled, fully land-tenured community, and that 
creates tremendous opportunities for economic empowerment, 
particularly for marginalized communities of women.
    But we are not only trying to help Colombia deal with the 
cost of those who have fled there from Venezuela. We are trying 
to help Colombia as our development partner and diplomatic 
partner strengthen their economy, bring about peace and 
reconciliation, bring governance to largely ungoverned rural 
areas. So it is important on both fronts, and it is work that 
we are absolutely dedicated to. And, again, I want to thank the 
members of the committee for the great support that you have 
shown and the special attention. Your staff has traveled down 
to Colombia, met with Colombians as well as some of the 
Venezuelans who have fled over, and we really appreciate the 
support and counsel.
    Mr. Rogers. Well, Colombian President Duque says the very 
existence of the region is at stake here. Is he overstating the 
problem?
    Mr. Green. I think it is one of the most underappreciated 
challenges in our hemisphere. When we talk about the challenges 
of displaced communities, I think most Americans think of the 
far corners of the world, but this is our neighborhood. And you 
are exactly right, the Venezuelans who have fled, 4\1/2\ 
million-plus, on their way to 6, many have gone through 
Colombia. They are not just going to Colombia. They are going 
to many other countries, Peru and Ecuador, and, in some cases, 
up to the Caribbean. It imposes tremendous cost, and it has an 
impact upon the provision of social services, access to 
education, food security, and economic growth.
    So it is very important that we continue to focus on this 
region, both on the humanitarian side, but also looking for 
ways to build some resilience in these communities because at 
this point, we don't see that tide, if you will, of forced 
migrants slowing down. It is 2,000, 3,000 to 5,000 per day at 
some points, and those are enormous costs and have real impact. 
So we need to focus on both.
    Mr. Rogers. Thank you.
    The Chairwoman. Mr. Price?
    Mr. Price. Thank you, Madam Chairwoman. Good morning, Mr. 
Green. Glad to see you. I appreciate your being here today. And 
I want to start by remarking that I feel we are in a particular 
position to appreciate your good work, to value your good work, 
on our bipartisan House Democracy Partnership. Our mission is 
to work collaboratively to strengthen parliamentary 
institutions in developing democracies, as you very well know. 
We simply could not do what we do without the National 
Democratic Institute, the International Republican Institute. 
They are funded directly, of course, through the National 
Endowment for Democracy, but they are often funded in the 
countries we are working with through grants and cooperative 
agreements with USAID.
    When we are in these countries, we also, of course, see 
broader evidence of your good work and your engagement, the 
contributions you make to almost all of our 24 partners. And as 
you might expect, we may have some specific ideas about the 
treatment of these countries in your budgets, and we will be 
wanting to work with you on that. We do look out for these 
countries, and we value their transition to democracy and 
sometimes how fragile it can be.
    Speaking of which, I want to ask you about Central America. 
When a country is in bad shape where citizens are fleeing for 
their lives, it seems that it would be in our national 
interests to try to address the root causes of this out 
migration, and to fund programs, often through your agency, 
that seek to do that. But that isn't what we've seen in this 
administration. Since March 2019, this administration has cut 
or withheld almost all foreign assistance, including 
humanitarian assistance, to the Northern Triangle countries--
that would be El Salvador, Honduras, and Guatemala--despite 
Congress continuing to appropriate this funding. So obviously 
one issue is the merits of the case. The other is contravening 
congressional intent.
    It is my understanding that of the $1.66 billion Congress 
has appropriated to this region since fiscal 2018, the 
administration has invested only $200 to $300 million, often 
accompanied, as I am afraid we are all aware, by the 
President's punitive rhetoric. So I want to ask you about that. 
There have been over the years a lot of advocates, bipartisan, 
all over the ideological spectrum. Most famously, I suppose, 
General Kelly when he was commander of SOUTHCOM. There have 
been a lot of advocates for this kind of support for these 
countries, this kind of home country support to address the 
conditions that often prompt out migration.
    So I want to ask you about that, of course, but I also want 
to ask you to take a few steps back, and maybe this will help 
us understand what is going on here. What would you say more 
generally about the potential of foreign assistance in these 
situations? Foreign aid can do some things. Other things it 
cannot do. Humanitarian development and economic assistance, 
what is the potential, in Central America or anywhere else, to 
address the root causes of people fleeing the country, out 
migration?
    So we are concerned about these cuts. I am very concerned 
about these cuts, but also concerned about the general 
proposition that we are overlooking a potential that foreign 
assistance gives us to deal with a critical international 
issue. So that is what I would invite you to reflect on.
    Mr. Green. Thank you, Congressman. Very quickly, on HDP, 
thank you. I think that the HDP partnership is a very important 
one. I will say very quickly just to plant the seed, we have a 
number of countries that are emerging into democracy, and they 
often lack a couple of things that we sometimes assume are 
there. Number one, transparency. They may not have any 
experience in transparency, and I think we can help strengthen 
that much to their benefit. But secondly, separation of powers, 
and you and I have spoken about this. There is not enough 
investment in legislative oversight. State, USAID, we tend to 
deal with the chief executive, the executive branch. I am a big 
fan of HDP because it is an important program in that area.
    Secondly, when it comes to the displacement challenges, 
there are a couple of parts to it. Number 1 is root causes, you 
are correct. And we have been working, while we are in this 
pause, from development assistance into the Northern Triangle, 
to develop methods for better calibrating the geographic 
sources from which out migration is coming so that when we are 
able to get back to full work when the administration is 
satisfied that we have strong and willing partners in our host 
country governments, that we can better focus some of those 
programs.
    But the other piece that you are focusing on or that you 
are pointing to, I think, is the challenge that is perhaps not 
addressed enough by all of us. I don't know that we have got 
all the answers. So as Chairwoman Lowey pointed out so well in 
the opening comments she made, we have got 71 million displaced 
people in the world, and we have a generation that is growing 
up displaced either in camps or in displaced villages, and I 
truly worry about their connectivity to the world around them. 
So we have to look at such things obviously as nutrition and 
health, education and how we provide education in these 
disparate settings, but also, more broadly, connectivity.
    How do we help young people connect to the world around 
them so that as they grow up, they are ready to contribute to a 
more stable, peaceful, prosperous world? It is a daunting 
challenge, and I can't tell you I have got all the answers, but 
it is what is causing all of us to think a great deal and 
reflect upon what tools can be developed. So you are right that 
we have got not just in the Northern Triangle, but in many 
places of the world, a couple of sets of challenges. Addressing 
the root causes that often drive people, which is often 
insecurity, lack of opportunity, oppression, conflict, but also 
those who are in motion, how do we help them so that we aren't 
locked into cycles where people become vulnerable to the worst 
kinds of exploitative forces in the years ahead? So that is 
something that is causing us to think of a great deal, to 
reflect, and we look forward to working with you on it because 
I think it is a daunting generational challenge for us.
    Mr. Price. Thank you. Thank you, Madam Chair.
    The Chairwoman. Thank you. Mr. Fortenberry?
    Mr. Fortenberry. Thank you, Madam Chair, for holding this 
important hearing. Administrator Green, Congressman Green, 
Ambassador Green. I never know what to call you, but welcome to 
the hearing. Thank you for obviously what is a long and 
distinguished career in public service. I think you have one of 
the best jobs in government. It is tough. It is difficult. 
Sometimes it is hard to explain because there is honestly a lot 
of fragmentation. There is a lot of variation to the types of 
problems that we have. The United States continues to lead the 
world in terms of humanitarian relief, and, frankly, charitable 
generosity, and you are at the point of that. So I am grateful 
for that.
    I want to point something out to you. I wrote to the 
Government Accountability Office coming up on about a year ago 
and asked them to basically do a mapping strategy for all the 
food security and assistance programs that America has that we 
are engaged in in terms of multinational organizations, as well 
as touching upon the myriad of nongovernmental organizations 
that touch this space. As you are quite aware, food security is 
the foundation for stabilization as well as human flourishing.
    So I would like you to address that question, how well food 
security through our myriad of important programs, whether it 
is Feed the Future, Food for Peace, the variety of other 
outreach efforts that you have through the micro types of 
programs that are there, are being fully integrated and 
socialized as, again, that foundational piece of your work. So 
that is just a broad comment.
    Second, and I would like you to comment on it, but 
secondly, the same thing goes with conservation and 
biodiversity. As we are moving forward in this century, 
emphasizing the need for environmental security is absolutely 
critical. A holistic approach that includes persons and things 
in place-based strategies is absolutely essential, in my mind, 
to your work. Again, please address how well we are doing. 
There is a new idea floating out there that is tactile. It is 
real. Individuals and communities can embrace it. It is the 
planting of trees as a way to stop deforestation, again provide 
stabilization for biodiversity and address the issue of carbon 
in the atmosphere. And finally, if we have time, I want to talk 
to you a little bit about Northern Iraq and your efforts there.
    Mr. Green. Thank you, Congressman. Any one of the topics 
you have raised, I think, might be the topic for a good hearing 
unto itself. First off, on food security, it allows me to point 
out that on this subcommittee and at USAID, we have the great 
privilege of working in an area in which every administration 
in modern times has created important tools. And Feed the 
Future, which was created during the Obama administration, is a 
marvelous tool that we are all very excited about. We have 
continued to prioritize investments in food security through 
Feed the Future with the Global Water Strategy as well, 
nutrition priority countries, and resilience-focused countries. 
All of those tools come together.
    In terms of how we are thinking about it, in the 
transformation process, we have recently launched a new Bureau 
for Resilience and Food Security, recognizing that food 
security is not simply a matter of providing food stuffs. It is 
also building some of the resilience to help communities 
withstand future shock. Plus on top of it, the greatest 
opportunities in most parts of the world for economic growth 
for surging economically are in the food security area. If you 
don't get food security right, it is very, very difficult to go 
very far and to provide opportunities for your young people. So 
in the transformation process, we are elevating it and making 
sure that resilience goes along with food security.
    Conservation and biodiversity, you and I share a great 
passion. I am a big supporter of the CARPE Program, which is 
our longest and largest biodiversity program, as well as the 
DELTA Program. But not only is it important for the goal of 
pursuing biodiversity in and of itself, which we elevate in our 
metrics, but I also want to point out that those efforts at 
combating wildlife trafficking are particularly important right 
now.
    If you look at where in recent years the most dangerous 
infectious outbreaks come from, almost all of it has some 
linkage to zoonotic causes. So tackling wildlife trafficking is 
not only a good conservation measure. It is a good health 
measure, and it is increasingly important. So, again, it is 
going to be elevated and prioritized in our work going forward 
because it is also a matter of health security.
    The Chairwoman. Ms. Frankel? Thank you.
    Ms. Frankel. Thank you, Mr. Green, for being here. I want 
to add my compliments to your organization. I have traveled all 
over the world. I have met with many of your workers, the NGOs 
that you fund, and I just add the compliment. So don't take----
    Mr. Green. My job is usually to get out of their way, quite 
frankly. They are talented.
    Ms. Frankel. So don't take my questions personally today. 
First, I think I will start with a story, and then I want to 
ask you a question relative to that because I actually had a 
visitor in my office a couple months ago. Her name was Celeste. 
She was 31 years old. She was a mother of two children from 
Mozambique. And I am not sure I met her or somebody who knew 
her, but here is the story. She had lost her husband to AIDS in 
2017 and turned to the Mozambique Association for Family 
Development for help when she discovered she was HIV positive. 
The clinic set a routine for her, and she told me that if it 
wasn't for these visits, she wouldn't be alive. There is a 
however to this. Apparently when there was a cut from this 
clinic's money because of the expanded gag rule, it shut down, 
and basically she had no place to go.
    So my first question, because I think people maybe don't 
understand this, and maybe you could explain it. I know that 
Federal money is not allowed to be used for abortion. Is that 
right? So we are not going to argue with that. I don't agree 
with that, but I am not going to argue that today. In the past, 
other Republican administrations have had what is known as its 
gag rule, which would affect organizations that did family 
planning.
    My understanding is under the Trump administration, with 
what I call its abortion obsession and its desire to placate 
the very extreme right wing of Americans who are obsessed with 
abortion, that now the whole gag rule is now applied to all 
healthcare money, and so that it is not just in family 
planning, but also in healthcare. So if you could just explain 
that, if that is true, and what is the size of that amount of 
money that is being affected?
    Mr. Green. Thank you, Congresswoman. So it does apply to 
basically all healthcare funds, but I think the important thing 
to remember is it doesn't reduce healthcare funding one dollar. 
So the overall funding that is provided for our global health 
work is not reduced by the PLGHA.
    Ms. Frankel. Well, it is attempting to be reduced here in 
your budget by a very significant amount, which I would hope 
you disagree, but I am not going to put you on the spot. The 
fact of the matter is, I guess the question is, is there any 
data now that you have that indicates whether or not all these 
NGOs or these clinics that have been defunded have been 
adequately replaced, because I just gave you an example of a 
clinic in a small village that was doing all the healthcare for 
the village. It has been defunded. Have there been 
replacements?
    Mr. Green. So let me answer that with a couple of points. 
So first off, you began by referencing PEPFAR and the important 
AIDS work that is being done.
    Ms. Frankel. Yes.
    Mr. Green. Some of that obviously I will defer to 
Ambassador Birx for. But I know that she has said publicly that 
under the budget request, all those who are on ARTs, there are 
sufficient resources for that to continue. Secondly, on the 
question you are posing of all of the organizations for which 
PLGHA is applicable, the vast majority have agreed to the 
conditions that are at the heart of PLGHA. And those that have 
not, obviously it is on us then to endeavor to make sure there 
is a smooth transition to the continued provision of those 
services.
    I know that there is an overdue report to you and to this 
committee. It is overdue by a ways, and it is in the 
interagency process. We will, as we have done before, make sure 
we report to you completely and accurately what the numbers are 
to help address your question.
    Ms. Frankel. All right. Are we going to have a second round 
of questions? OK.
    The Chairwoman. Yes.
    Ms. Frankel. OK. Thank you, and I yield back. I will ask my 
other questions later.
    The Chairwoman. Mrs. Roby?
    Mrs. Roby. Good morning. Thank you, Madam Chair, and thank 
you, Administrator Green, for your testimony before our 
committee today. And I know that the chairman already asked 
about Afghanistan, but it is very, very important to me as 
well. And throughout my time in Congress, as you know, I have 
had the opportunity to visit Afghanistan 8 times, and looking 
forward to my ninth trip coming up.
    The time that I have spent in Afghanistan has been truly 
impactful for me, both as a member of Congress, but personally. 
And the purpose of our trip, of course, is to spend time with 
our troops, and we usually try to schedule this trip in and 
around Mother's Day to be with our female troops on that 
special day who are away from their families. But we also have 
the unique opportunity to spend time with Afghan people, and 
especially Afghanistan women, in various regions throughout the 
country.
    And whereas, again, I know this has already been brought up 
in terms of the AUAF, but as we look towards peace in Afghan 
and we hope for, of course, a conflict-free future, the path 
forward needs to be thoughtful and methodical. We cannot lose 
the gains that we have made, especially as it pertains to 
women's rights. So I am going to give you yet another 
opportunity as it relates to USAID, what does the future of 
humanitarian aid to Afghanistan look like? And so not to repeat 
the questions that have already been asked, but looking at a 
long-term strategy towards ensuring stability in that region. 
And, again, I think probably the best word that we can use as 
it relates to these incredible gains that have been made is 
that they are very fragile. And so I will let you address that.
    Mr. Green. Thank you, Congresswoman, and thank you for the 
attention that you have paid in your travels. You know, I think 
Secretary Pompeo has put it pretty well. There are challenges 
obviously even with the signing of the peace deal. Progress has 
been made. Right now we have a real opportunity, and we have to 
call upon the Afghans to seize the opportunity obviously. More 
specifically to your questions, humanitarian assistance, we 
will continue to provide humanitarian assistance. I think we 
all recognize that humanitarian assistance is treatment, not 
cure, so we are all hopeful for the day where it is not 
necessary. It is necessary right now, and we will continue to 
provide that as we can.
    More importantly is the development assistance and helping 
secure, lock in the tremendous progress that has been made in 
terms of women's empowerment, economic empowerment involvement 
in communities, and educational opportunities. That is 
something that is very important to us, and we will continue to 
work in that area. We have also been working in the region to 
help secure MOUs to try to build some regional energy markets. 
There are real possibilities there. It is very hard for a 
country like Afghanistan to really seize its future with the 
limited electrification and energy, the connectivity that is 
there. So that is something that is important to us as well. 
But we all want to see success, and we all want to build on the 
progress that has been made.
    Mrs. Roby. And last year you gave us an overview of the 
current transformation project being undertaken at USAID, and I 
understand one component of the transformation process would be 
to reevaluate how a country's socioeconomic progress is 
measured. So as it relates to Afghanistan or anywhere else, 
what are the markers that would be used to determine a 
country's success? In other words, what kind of metrics does 
USAID, and we have talked about this one-one-one before, use to 
make future funding decisions? And I think that is really 
important, particularly as it relates to outcomes, not just 
inputs.
    Mr. Green. Right.
    Mrs. Roby. You know, we can talk all day here about what we 
are doing and what we are investing, but I think it is 
important for us as we speak back to our constituents to be 
able to talk about outputs. My time is running out, and maybe I 
will save this for round two, if you want to just put that in 
your back pocket, and I will revisit this in the next round.
    The Chairwoman. Thank you. Ms. Meng?
    Ms. Meng. Thank you, Madam Chairwoman, Mr. Ranking Member, 
for holding this hearing, and thank you to Administrator Green 
for being here and for your work. There are currently more 
people who have been forcibly displaced than at any other time 
in our history, 70.8 million according to UNHCR. At least a 
whole generation of children have been born and will live their 
formative years in refugee camps.
    In light of this, I am particularly concerned to once again 
see that the President's budget includes plans to decouple 
refugee programming from the diplomatic efforts of the State 
Department by transitioning almost all MRA money to the 
International Humanitarian Assistance Bureau, even though this 
was expressly forbidden in the fiscal year 2020 SSFOPS 
appropriations. Two questions. One, how do you envision the 
balance between the diplomatic and developmental roles required 
in U.S. engagement on these refugee issues? And two, what is 
your ideal breakdown between PRM and a future IHA when it comes 
to the use of the MRA money?
    Mr. Green. So in places all around the world, we work hand-
in-glove with the State Department. There really isn't an 
issue. We each have roles to play. We each have capacities to 
play. Obviously, State has the diplomatic lead, and it should, 
and in each place where we work, the chief of mission is 
obviously the State Department. And so the goal, I think, for 
all of us is to make sure that there is integration, that it is 
seamless, that there isn't duplication.
    Our role is operational. Our role is not only to move 
money, but to measure results and to make sure that we are 
nimble enough for changing needs. So I don't really see an 
issue. It has worked quite well, and we continue to work on 
better integration. I will let you pose some of this to the 
State Department, but I think both sides right now are 
comfortable with the approach that we are taking to make sure 
that there isn't either a seam or an overlap.
    You know, I think the challenge is increasingly that what 
we are seeing are communities in motion, and sometimes the 
distinction between internally-displaced persons and refugees 
is a relatively artificial one, and it is a moving target. And 
so I think what both State and AID are trying to do is to make 
sure that we are appropriately postured for the terribly 
complicated nature of these quickly-emerging challenges. So 
that is sort of how we view it.
    Ms. Meng. Are there any risks to doing this? We were told 
during the rollout of the budget that there are plans to co-
plant or co-locate the departments?
    Mr. Green. We are co-located in most places, so I guess I 
am not sure I see either an issue or a risk. Again, we both 
have roles to play, and, you know, we are not in places without 
State Department approval, and we fall under chief of mission 
authority.
    Mr. Meng. Thank you. I wanted to follow up a little bit. We 
started talking about youth. Whether here in the U.S. or 
abroad, young people have long been at the forefront of 
building peace in their communities by creating youth-wide 
movements, organizations, and networks to mitigate negative 
effects of conflict and to prevent recurring cycles of 
violence. Inclusive peace processes are proven to more 
holistically address the root causes of violence and lead to 
more sustainable peace. Especially in countries in conflict, it 
will be the young people who bear the burden of sustaining the 
peace over generations. What kind of outreach is USAID doing to 
ensure that organizations led by and serve young people are 
engaged in conflict prevention strategies?
    Mr. Green. I think you put your finger on a really 
important topic and challenge and opportunity. So I have just 
returned from a visit to Tunisia, my second time there 
personally. I was there in a previous capacity. But as we know, 
it was young people in Tunisia that essentially led to the 
crafting of the most progressive constitution in the Arab 
world. And so I took the opportunity to meet with youth 
representatives several years later and say, OK, what do you 
think and where are you, and it was great to see that they had 
not lost their dedication and enthusiasm. They saw that there 
were some practical challenges that needed to be worked on. My 
money is on them because that energy, I think, will carry 
Tunisia forward, but it is that kind of involvement that I 
think is a good model for many places in the world.
    For most of the displaced challenges that we are talking 
about, you are dead on. I mean, it is young people who we have 
to point to for the future. They are the ones that, if we fail 
to provide them with tools and experience, will be locked into 
cycles, and we won't get to where we need to be, so I think it 
is very important. Finally, something else that I don't think 
gets perhaps enough attention is we talk about the challenges 
that we see from the Chinese model, for example, of development 
and assistance. I worry a great deal that young people may not 
even realize that their future is being mortgaged in terms of 
debt distress, but oftentimes loss of natural resources and 
biodiversity. So it is important that we involve young people 
up front early on so that they get to help realize their 
birthright and claim that future that you are pointing to.
    Ms. Meng. Thank you. I yield back.
    The Chairwoman. Thank you. We are going to begin a second 
round, and we will continue as long as you are gracious enough 
to give us your time. Thank you.
    I would like to continue on the Mexico City issue. It was 
February 2018 that the administration indicated that its 6-
months' assessment was too early to determine the policy's 
impact, and that a complete report would be provided by 
December. I am still waiting for that assessment. Meanwhile, 
the administration has issued ``clarifications'' to the policy 
that make it even more problematic for overseas partners. So, 
first of all, when can I expect this assessment?
    And in June 2019, The Lancet published a study on previous 
implementations of the Global Gag Rule, and found that 
abortions went up by 40 percent in countries dependent on USAID 
health programming, while contraceptive use when down 12 
percent. So how can the United States continue to implement a 
policy without knowing its effect?
    Mr. Green. Thank you, Madam Chair. First off, you are 
overdue for that assessment. The 6-month report that you 
pointed to, because it caught many programs or projects 
midstream, that is why we all felt it was too early to fully 
understand the impact of the new policy. The next report is 
overdue, and it is in the interagency, and I will do my best to 
get it to you as soon as we have it available. You are 
certainly due that.
    With respect to the second part of your question, the 
administration is confident that we can continue to meet our 
global health goals at the same time that we prevent taxpayer 
money from directly or indirectly supporting organizations that 
perform or actively promote abortion as a method of family 
planning. And, again, the report is due to you, but it hasn't 
reduced dollars, and as far as I know, we have not had material 
disruptions in services. But, again, that report is due to you.
    The Chairwoman. I know you are carrying out the policy, and 
you probably didn't make the policy, but do you think those who 
did are aware that abortions have gone up 40 percent?
    Mr. Green. I am afraid I can't answer as to what they might 
be aware of.
    The Chairwoman. Thank you. Let's talk a minute about the 
coronavirus. We are all closely watching the global spread of 
coronavirus. Disease outbreaks are becoming more frequent. The 
committee has tried to partner with the administration to 
ensure that there are funding and flexible authorities to 
robustly respond. Can you share with us what role, if any, 
USAID is currently playing in the coronavirus response, and how 
have USAID investments better prepared countries to respond to 
such disease threats, and where do gaps remain?
    Mr. Green. Thank you for the question. So as a general 
matter, over the years, we have made a range of investments 
that I think have built the capacity for surveillance, 
detection, and processing in many parts of the world. In 
particular, I would point to the university networks that we 
have invested in that help on animal surveillances. As we have 
discussed, one of the great challenges that we are seeing is 
how many of these dangerous infectious diseases are zoonotic in 
origin. So they are emerging from trafficked wildlife, and so 
that is something that is of attention or of concern to us.
    But I do think, as a general matter, the investments that 
we have all made have built the capacity to detect and to 
treat. I also think the public messaging networks that have 
been created are important. We oftentimes underappreciate how 
important those are. We see it, for example, in the Ebola 
setting. So much of what we need to do in interventions and in 
the case of coronavirus and, God willing, eventually a vaccine, 
require clear messaging to the public so that they are coming 
forward or that they take the appropriate precautions. Part of 
what we invested in is that, making sure that we have those 
networks that are set up.
    You can see, I think, the success that we have had and the 
role that we have played in combating the Zika virus, H1N1 flu, 
West Africa Ebola, and, knock on wood, the winding down of the 
current Ebola outbreak. But with the case of the coronavirus, 
there is obviously a great deal that we don't know. And as we 
see outbreaks, large outbreaks, occur outside of China, for 
example, in Iran, that creates obviously real challenges for 
all of us because it becomes a multipolar outbreak source. And 
so we are working very hard to make sure that we are able to 
provide PPE, but also boost the capacity of labs in various 
parts of the world so that we are better prepared.
    The other piece to it, you know, that we will all be 
thinking about hopefully soon are the secondary implications. 
So these outbreaks could destabilize health networks, health 
systems. We are concerned that they might sort of set back 
development progress that has been made. The other area that we 
are concerned about are the risks that some of the countries 
where we know there is the outbreak are potentially 
underreporting and not living up to the international health 
regulations. Those are challenges for us. So in these early 
days, we know there are a number of challenges out there. We 
are working closely, particularly with the State Department, to 
make sure that our resources are applied to the challenge, but, 
again, there is a lot we don't know.
    For the Trump administration very obviously, as we all 
know, the high priority is protecting Americans here at home, 
and I think you can see that in the early steps that the 
administration has taken and the team that they have assembled. 
And we look forward to continuing to support the work of the 
administration in this.
    The Chairwoman. Well, I am glad to hear you are involved 
because, if I am not mistaken, in January 2020 when the task 
force was announced, it didn't include USAID or the Defense 
Department, which were the two primary players in the Ebola 
response in West Africa. So I think my time is almost up, but I 
am glad from your remarks that you are being included in the 
discussion.
    Mr. Green. To be clear, we are not members of the White 
House Task Force, but we certainly----
    The Chairwoman. Is that a mistake?
    Mr. Green. So we are not members of the White House Task 
Force, but I can tell you that we are contributing in the 
interagency and making sure that our assets are brought to 
bear.
    The Chairwoman. Does the White House understand when they 
create a task force, if they leave a critical agency out of it, 
or doesn't it make any difference? Are you still putting in 
your 2 cents----
    Mr. Green. I would never say it doesn't make a difference. 
I will say that----
    The Chairwoman. But you can correct them and say, ah, you 
forgot about me.
    Mr. Green. So, again, and we continue to do things first 
off, for ourselves. We are organizing ourselves and posturing 
ourselves so that we are better organized to be able to 
contribute. And secondly, we continue to provide information to 
particularly the State Department, members of the task force, 
and we work pretty closely with CDC anyway. I have regular 
phone calls with Dr. Redfield, so the information flows are 
solid. They are good.
    The Chairwoman. I get it. Well, I am delighted. Even though 
you weren't made a formal part, I am glad they are taking 
advantage of your expertise. Thank you. Mr. Rogers?
    Mr. Rogers. The U.S. Indo-Pacific strategy, your efforts, 
our efforts to improve market access, promote fair, free, and 
reciprocal trade, and help countries resist coercive economic 
practices. We have provided $2.9 billion from State and AID to 
Indo-Pacific nations for development and economic growth since 
the start of the Trump administration. But on the other hand, 
there is China. Over the last 15 years, China has fueled one of 
the most dramatic and geographically far-reaching surges in 
official peacetime lending in history. China's massive Belt and 
Road Initiative symbolizes Beijing's new role as a provider of 
development and export credits and development financing of all 
sorts, spanning roughly 80 countries. It can claim to cover 
more than two-thirds of the world's population. It could 
include Chinese investments approaching $1 trillion, seven 
times what the U.S. spent under the Marshall Plan. Seven times.
    It intends to strengthen hard infrastructure with new roads 
and railways, soft infrastructure with trade and transportation 
agreements, even cultural ties with university scholarships and 
other people-to-people exchanges. The most distinctive feature 
of the Belt and Road is its lack of transparency. Few outside 
the Chinese government and development agencies that do that 
lending, and the governments and state-owned enterprises that 
do the borrowing, know what the loan terms are. By limiting 
outside scrutiny, the Initiative's lack of transparency will 
give Chinese companies an edge in risky markets, and it allows 
Beijing to use large projects to exercise political influence, 
an un-American type of program. Understanding that the U.S. 
response has to come from different agencies, lots of them, 
what is AID's role and your strategy to counter this China 
model?
    Mr. Green. Great question. So, first, I think, as a general 
matter, part of what we are trying to do is help partner 
countries understand the bargain involved in the very different 
models that are out there. So the model that we offer our 
assistance partners is one of self-reliance. We want to help 
countries undertake the reforms and make the commitments that 
are necessary to become self-reliant, and that is what we offer 
at the end of that journey together. China and other 
authoritarians offer something very different. They want 
dependency, just the opposite of what it is that that we offer. 
And so our job, part of it is to make clear that distinction.
    Secondly, in more specific terms, we have some tools, 
particularly in the Indo-Pacific area, that we have provided to 
partner countries to help them objectively evaluate some of the 
deals that are being offered to them so that there is an 
objective understanding of the consequences. So it may be, you 
know, a cash fix up front, but the long-term consequences in 
terms of loss of assets and debt distress are significant. On 
top of that, reference was made to the indicators that we use 
to help guide our investments and to also guide the diplomatic 
discussions that we have with our counterparts. In this year's, 
what we call, road maps, we have provided a debt distress 
indicator to help understand how close a country is coming to 
what the World Bank would point to as significant distress, and 
make sure that that is out on the table and in public for the 
discussions that we have.
    Further, USAID's role in all of this is to help take on the 
enabling environment. So what is it that stops American 
companies from investing in many of these countries? It is 
usually not capital. Capital is there. Capital is available. It 
is rule of law. It is regulatory predictability. It is the kind 
of transparency that you pointed to. So in the work that we do, 
we have tried to strengthen those aspects of governing 
institutions, very confident that if we are able to make those 
changes and reforms and strengthen it, that American business 
investment will take off. Market-based investments will take 
off. And, you know, we all know that market-based economics are 
the key to realizing the future for many of these countries. 
And so those are the reforms that we undertake.
    Finally, in terms of the Indo-Pacific itself very 
specifically, we are increasing our presence. We are adding 
U.S. Direct Hires. I am planning on heading to Australia soon 
to do a development dialogue with our friends in Australia. We 
hope to have a Senior Development Advisor there which will help 
us as we coordinate investments and reforms in the Pacific 
Islands and in the region. So we are increasing our presence, 
doubling down on our enabling environment work, and also 
hopefully doing a better job in helping partner countries 
understand the costs and the benefits of the various models.
    Mr. Rogers. Thank you.
    The Chairwoman. Mr. Price.
    Mr. Price. Thank you. Mr. Administrator, I want to first 
thank you for your answer to my question in the first round, 
which had to do with the cut off of funds to the Central 
American triangle countries that are designed to address the 
forces behind out migration. I want to give you a chance to say 
anything more you want to say about that, but then I do want to 
turn to another issue. But I do appreciate those reflections on 
the potential of foreign assistance to address the root causes 
of out migration. Such aid is, of course, going to be limited. 
Even under the best of conditions it will be limited, so it has 
to be targeted effectively. What I didn't hear you say, that it 
was helpful to cut it off completely or almost completely, 
which is what the administration has done in Central America. 
It is hard to see how that is constructive or helpful, and it 
is also important, I think, to note how hard it is going to be 
to start it up again.
    I appreciate you are anticipating that it will be started 
up again, but the implementers, mainly nonprofits, tell us that 
the cutoff has prompted distrust in affected communities. It 
has prompted an erosion of cooperative ties, and they are not 
going to be repaired overnight, so I appreciate your comments 
on the potential of such funding. And I am bound to observe 
that when you compare this funding to $13 billion being 
diverted from U.S. defense programs to build a border wall, and 
that border wall does nothing to address asylum seekers, who 
are, after all turning themselves in, the money we are talking 
about for these home country efforts is far less than 10 
percent of that misbegotten wall funding.
    Now, let me turn to a critical country in our hemisphere 
that I am sure we have a lot of discussion going on about what 
on earth we do about the current lack of functioning government 
in Haiti. What is the potential here? What is the ability of 
USAID and other donors to carry out programs in Haiti? If we 
take a sober look at what is happening there, helping Haiti 
promote citizen responsive governance, including our work at 
HDP with the parliament, it is just not feasible in the current 
impasse. Both houses of the parliament, with the exception of a 
small fraction of the senate, have, in fact, lost their 
mandates because there have not been timely elections. So what 
is USAID doing to assess the problem, to fix the problem?
    No other country is in a position to take the lead in this 
Haitian situation. How do you assess the difficulties in 
governance, just basic governance, holding timely elections, 
other such functions? And what is your assessment of what we or 
anybody else can do about it?
    Mr. Green. Thank you, Congressman. I have made a couple of 
trips to Haiti during my tenure, most recently just weeks ago, 
and it was obviously disturbing to see the violence that was 
taking place, disrupting the ability for kids to go to school 
for weeks on end, the ability for small businesses to get parts 
necessary to move forward. Yeah, deeply, deeply disturbing. So 
a few thoughts.
    First, the good news is there are a number of heroes in 
Haiti. Small organizations, many are faith-based, not 
necessarily all, but some of the hospitals that I have seen and 
small schools that I have seen, even under trying 
circumstances, creating opportunities. I want to do everything 
I can to ensure that resources are available to build on this 
work, because right now with the dysfunction in the government, 
it is the people, it is the everyday families that are 
suffering terribly. And I think we are all deeply worried about 
a lost generation in Haiti.
    Secondly, there are seeds for hope. I visited a small 
banana farm, if you will, where they were doing some 
mechanization. But there was a wonderful cooperative in which 
they were training everyday Haitians to take on all the aspects 
of upgrading the operation so that the fruit can be exported 
into the international stream of commerce, which is the future 
to be able to export. The frustration of that day is they got 
ready to show me the operation of the farm, and only one of the 
lines was working because the violence had disrupted the truck 
traffic necessary to get the parts for the other lines. And so 
I saw both the hope of the future and just the frustration of 
the present.
    I have met with President Moise, and I expressed my deep, 
deep concern about the dysfunction in the government. And, you 
know, in the short term, we are bound and determined to do some 
humanitarian assistance, again, treatment, not cure. I can't 
promise you that we can always get humanitarian assistance 
everywhere we would like to because of the security situation, 
but we want to build upon some of these heroes I referred to.
    And finally, as I indicated to a number of people, I think 
the only way that you begin to restore people's faith in 
government there is you need some kind of special prosecutor on 
corruption. Until people see a couple of the big guys, using 
that term, behind bars for corruption, I think it is really 
hard for people to have a lot of faith in their government. And 
so we are looking at the opportunities and ways that we can 
play a constructive role in that. Haiti is our neighborhood. We 
are not going to give up. We refuse to give up. Haiti matters 
to us. It is a country of great interest, concern. There are so 
many linkages. But it is challenging work, to say the least.
    Mr. Price. Thank you for those comments, and I couldn't 
agree more about the corruption issue and how central that is 
to building trust. Let me just say--my time has expired--but I 
would just make the comment that governance is basic to 
everything else. And I remember very well urging Secretary 
Clinton after the earthquake that attention be paid to the 
literal collapse of not just the buildings that house the 
government, but the near collapse of the government itself. And 
so I think you will have the support of this subcommittee as 
you address that aspect, that critical aspect of what we all 
agree is a devastating situation. Thank you.
    The Chairwoman. I would just like to take the privilege of 
the chair because I appreciate my colleague's remarks regarding 
Haiti. This has been an obsession of mine, and most frustrating 
because we can't seem to do anything. I hate to say it, but 
when I look back, and I was there, I think it was at least 50, 
60 years ago, with Papa Doc. I hate to say that. At least 
people weren't getting killed on the street. I would really 
like to work with Mr. Price and my other colleagues, and with 
you.
    I recently met with Ambassador Sison again, and before 
that, we have had other capable people from USAID and from the 
State Department working on Haiti. We don't have terrorists 
there yet. It is right here as a neighbor. Well, there are many 
things that are frustrating to me. I won't say it is the most, 
but it is among my top, and I would like to work with you, and 
Mr. Price, and others to see, I am not sure if it is more 
money, or more people. But we have had the best people focus on 
Haiti, and we can't seem to make a change, and people can't 
live decently. The crime is everywhere.
    And yet I had an experience within a group where I was 
complaining about Haiti, and one person raised their hand. She 
said I am part of a group, a medical group, in Haiti, and we 
are doing excellent things, so it is all not bad, but we 
understand the huge challenge. And I would like to say for 
myself, Mr. Price, and others, who really are desperate to try 
and find some solutions that work, we would like to work with 
you. And I am not sure if it is money, money and focus. We have 
tried everything, so I just want to say I agree with you, my 
good friend, Mr. Price, and I know many of us feel the same 
way.
    Mr. Green. Madam Chair, I will just say that the committee 
has been extraordinarily helpful. We have met with staff, had 
bipartisan meetings with staff actually before and after my 
recent trips, and I think there is broad bipartisan support 
looking for answers and willing to try most anything. We look 
forward to continuing that conversation. We all recognize how 
important this is.
    The Chairwoman. Thank you. Mrs. Roby?
    Mrs. Roby. Thank you, Madam Chair. So I will go back to the 
question where we left off. So under the transformation plan, 
what are the markers that would be used to determine a 
country's success? In other words, what metrics will USAID use 
to make future funding decisions?
    Mr. Green. Thank you. So what we try to measure are, and I 
think you put your finger on it, we are not measuring inputs. 
We are not even measuring outputs. We are measuring outcomes. 
We have 17 third-party metrics that we use that measure both a 
country's capacity in each of the key areas that we work on and 
are identified by our stakeholders, but also a commitment 
because if our host country partners are not willing to put 
their own skin in the game and undertake reforms, then, quite 
frankly, we are largely wasting our time. And so what we try to 
do is to plot where countries are. It is not perfect. There 
aren't perfect metrics out there, but we try to use it to guide 
our discussions.
    In a perfect world, what we hope to do is to have our 
investments prioritized according to those metrics. I 
understand that there will always be superimposed directives 
and priorities, whether it comes from the administration or it 
comes from Congress, and that is simply the way the process 
works. None of those, however, is a problem in terms of the 
broad way that we proceed. The most important thing that we get 
from our metrics, not just how it guides our investments, but 
it guides our discussions.
    And I found, when you sit down with your host country 
partners, and you have, for lack of a better term, honest adult 
conversations and say, look, you know, we are not saying we got 
all the answers, but this is what we see, and this is how we 
think we can be helpful, in almost every case I am aware of, 
the host country partners say, great, let's sit down and see 
what we can craft together. So we are interested in outcomes 
instead of outputs, not simply looking at the programs, but how 
they build the capacity of a country to eventually take these 
challenges on themselves.
    We add to it, I think, a prioritizing of domestic resource 
mobilization, helping them more effectively and efficiently 
capture their own revenues. Again, it is their country. They 
need to put investments into these areas. Otherwise, they 
become, for lack of a better term, a dependent, and no country 
wants to be that, nor should want to be that. So we are really 
trying to move in a direction in which our host country 
partners see us as honest friends walking along a journey with 
them.
    Mrs. Roby. Thank you, and thank you for the work that you 
do. And, Madam Chair, I yield back.
    The Chairwoman. Ms. Lee?
    Ms. Lee. Thank you very much, Madam Chair, and thank you 
for being here. Good to see you. I come from the State of 
California where, unfortunately, childhood poverty rates are 
the highest in the country, if you can believe that, from the 
Golden State of California. My district is one of the highest, 
so it is a moral disgrace, and that is what we are dealing with 
across the way. So thank you again.
    I apologize if these questions are redundant, but let me 
ask you, first of all, and I will try to put all the questions 
together. The budget cuts in HIV/AIDS funding through PEPFAR. 
This has been bipartisan. We are trying to achieve an AIDS-free 
generation by 2030, yet you have cut it by, I guess, $1.5 
million below the 2020 enacted amount. I don't know what in the 
world could be the justification for this, but I would like to 
hear your answer on that. And also the Global Fund 
contributions. You know, we have a 33 percent limit in terms of 
our share. Now it is down in this budget to 25 percent. Of 
course, that is going to affect not only our contribution to 
the Global Fund, but to the operations throughout the world.
    Second, I want to ask you about, and we have talked a 
little bit about this, about Gambia. We were there with 
Congressman Price and our House Democratic Partnership in The 
Gambia, and we recognized that they really have a new 
government, great possibilities. They need USAID's presence. 
And we know there is a regional effort, but we talked to many 
people there, and we have talked a little bit about this. And I 
want to see some presence, some footprint of USAID in The 
Gambia. I think we have a real opportunity there, and I don't 
see anything in the budget creating that. And so I would like 
you to talk a little bit about that, if we do move ahead, to 
try to ensure a presence of USAID in The Gambia.
    And then let me just ask you about the administration's 
peace plan as it relates to UNRWA. You know, the administration 
ended all humanitarian and development assistance to the 
Palestinians last year, and we know, though, that UNRWA had a 
70-year U.S. relationship with the United States. But also we 
know that not 1 cent of UNRWA funding passes through the PA. 
Can you kind of explain what is going to take place now under 
this new peace plan and as it relates to Palestinian 
assistance? What is going to happen as it relates to the 
funding for schools and hospitals and humanitarian assistance, 
and does this administration intend to restore aid to the 
Palestinian people? So thank you very much.
    Mr. Green. Thank you, Congresswoman. A lot of topics to 
cover. So on PEPFAR and the Global Fund, first, I think it is 
important to note that we remain the largest contributor to the 
global AIDS effort, as you know. In terms of the specifics on 
the PEPFAR front, earlier I was asked a question, and 
Ambassador Birx has indicated that under this budget, the 
resources are sufficient to continue. All those who are on ARTs 
will continue to receive ARTs. Beyond that, to be honest, I 
should defer to her as the leader of the PEPFAR program.
    One area that I think is exciting, that you and I both 
think is exciting, is the huge commitment we have now made to 
GAVI, which I think provides some long-term answers on a number 
of global health fronts. This is the largest-ever multiyear 
commitment. We are very proud of that, and I think it is 
something that we can celebrate. Second, on The Gambia----
    Ms. Lee. But we shouldn't reduce it to 25 percent because 
that is going to mean our leverage ability for the Global Fund 
goes down.
    Mr. Green. Right, and that is separate from GAVI obviously.
    Ms. Lee. Yeah.
    Mr. Green. On The Gambia, you and I have spoken. I share 
your concerns, and so we are looking at that. Now, there are 
some potential restrictions because of trafficking in persons 
and it is something we are looking at closely. And, again, you 
and I have discussed that. I share your prioritizing because we 
have real hope in moving away from an authoritarian past, and 
we certainly don't want to lose it, and if we do, things don't 
get better. We know things get worse. So that is something that 
we are looking at.
    Ms. Lee. OK. Well, as this bill moves forward, I would like 
to work with you and Price and our chairwoman to see what we 
can do in this bill as it relates to Gambia and USAID.
    Mr. Green. Great.
    Ms. Lee. OK.
    Mr. Green. No, no, most certainly.
    Ms. Lee. OK. Thank you.
    Mr. Green. On UNRWA, that is better addressed to the State 
Department. UNRWA related to the State Department. On the peace 
plan, what I can say is in terms of our West Bank Gaza 
presence, we have no plans to close it. We are trying to 
continue our presence there. The 45 local staff that are part 
of their presence are currently involved in helping USAID 
programs in other areas and other missions. And we are hopeful 
for a day when the work can resume as part of the peace plan.
    Ms. Lee. Thank you, Madam Chairwoman.
    The Chairwoman. Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Madam Chair. My children's 
great-great-great great-great-grandfather was Haitian, and when 
I met with the Haitian president, I told him that, and he said, 
welcome home. I missed the fullness of the discussion in this 
regard, but clearly it is important to a lot of members. 
Haitian culture, Haitian history is so inextricably intertwined 
with America. I think there are 11 million Haitians, people of 
Haitian origin in the United States. Multiple school groups, 
church groups have connectedness to various projects there, and 
yet the problem is so vexing of governance, criminality, a lack 
of seemingly sustainable economic dynamics.
    Madam Chair, if I could be presumptuous and suggest 
something. Perhaps we should invite Ambassador, the excellent 
ambassador, Sison here. And, Mr. Administrator, if you might be 
able to join in that conversation, to just start unpacking 
layer by layer. We have a huge amount of resources there. We 
have done so for a very long time. It just deserves more than 3 
minutes here. Perhaps I can talk to the chair afterward about 
that idea.
    Mr. Green. I share your love of Haiti. You know, first off, 
one of the things that always move me when I go to Haiti, and 
you travel around and you see the buzz of activity----
    Mr. Fortenberry. There is a joy on the street there. It is 
amazing.
    Mr. Green. Very much so.
    Mr. Fortenberry. Yeah.
    Mr. Green. So the problem isn't with the Haitian people.
    Mr. Fortenberry. Yeah.
    Mr. Green. As I point out, certainly Haiti has been struck 
by numerous natural disasters, as we all know. But when people 
protest, they are not protesting the hurricanes, right? They 
are protesting an entirely unresponsive government, a 
government that refuses to get itself in order to deliver even 
the most basic of services. A quick story. My last trip down 
there, I was at a dinner with a number of Haitian business 
leaders, and in the middle of the dinner, one of the leaders 
got up and walked out. And then they leaned forward and said he 
had just gotten a phone call to say his brother-in-law been 
kidnapped. I mean, that is just sort of the daily life that we 
are seeing there, and we cannot rest with that happening.
    Mr. Fortenberry. I appreciate your comments, and I am sorry 
to expedite along here, but my time is just so short. If the 
chair would consider my request, I would be happy to talk to 
you afterwards about that. I think some type of working group 
to get us beyond just the touchpoints in the hearing. In the 
last omnibus bill, by the way, there is some language that we 
got included that tries to get you to look more seriously at 
the border crisis issue with the Dominican Republic, which is 
one of the underlying factors of disruption of the economy. So 
let's put that on the side for another day.
    I want to return back to the food security piece and 
Government Accountability Office request that I look at this 
mapping strategy as to how our programs, the other important 
food security programs costs, World Food Program, can be 
possibly better integrated to ensure that we are a force 
multiplier to go to the heart of what this transformational 
idea is in terms of stabilization and human flourishing. So I 
want to get you a copy of that. I would appreciate it if Chair 
Lowey and Ranking Member Rogers would look at this as well. If 
I could include it in the record of this hearing, I would be 
grateful, Madam Chair. Again, it is the letter that I sent to 
the Government Accountability Office.
    The Chairwoman. With pleasure, without objection.
    Mr. Fortenberry. Thank you, Madam Chair. And finally, let's 
turn to the issue of northern Iraq quickly. We have been there 
together. In this past budget, not in report language, but in 
bill language, we were finally able to get what you and I have 
talked about in terms of security. Conceptually, that the 
ethnic religious minority community ought to be integrated into 
the national security structures of the Iraqi government. It is 
clear language. It is pointed to that. We are in dialogue with 
the Defense Department now. I want you to be aware of that. Can 
you give me an idea of where we are in terms of economic aid, 
and then as we move forward on the security component, which 
would be potentially implemented obviously in strong solidarity 
and partnership with the Iraqi government, but also by other 
international partners, how it could lead to sustainability for 
the hundreds of millions of dollars that we are spending there 
in terms of stabilization? Could I get your update on that, 
please?
    Mr. Green. Great. Thank you, Congressman, and I do remember 
the trip we took together, and your follow-up on the security 
front is deeply appreciated. As we discussed then and recently, 
it is very hard for us to succeed in the goals that we have of 
creating an opportunity for those in Northern Iraq, religious 
and ethnic minorities from Yazidis to Chaldean Catholics, to 
come back, or to at least stay and see it as their home, if we 
don't get security right.
    Even in the challenging environment that we all see, there 
are investments coming in, and we have had some sessions 
recently on the ground in which we have seen investors come in. 
I just recently met with a businessperson, who is looking to 
invest in a bottling and canning operation in the region, so 
there are opportunities. There is interest. If the environment 
is secure, if the government realizes that these are not really 
minorities, but, in their terms, component communities, part of 
the whole, there is every reason to believe that this can 
recover some of that wonderful tradition and mosaic of 
ethnicities and faiths that has been something we all admire in 
northern Iraq.
    The Chairwoman. Ms. Frankel?
    Ms. Frankel. Once again, thank you for your service. I do 
want to note that the administration has paid some attention to 
women's economic empowerment in regards to there are a couple 
of pieces of legislation, the WE ACT. There is a new Women's 
Global Development Prosperity Initiative. But I just want to 
say that, you know, there is an old expression, don't cut off 
your nose to spite your face. It is all well and good that the 
administration would seek to change property laws in countries 
or find capital for women's businesses, but when you are 
cutting the budget to educate girls, there are 130 million 
girls in this world who are out of school. So this budget is 
asking to cut hundreds of millions from education.
    And the other thing is, women have to be and girls have to 
be healthy to be successful. This budget proposes a billions of 
dollars cut to global health, which gets me back to our initial 
discussion of the Global Gag Rule, which I think I let you 
slipperly slide by. And I want to just read something so people 
understand what it is and how damaging it is because it is not 
really about Federal funding of abortion. It is about keeping 
girls and women from access to full healthcare and to truthful 
information from the healthcare providers.
    ``The Global Gag Gule is one of the most deeply damaging 
policies ever enacted on foreign assistance funding. The gag 
rule blocks U.S. Federal funding for nongovernmental 
organizations that provide abortion counseling or referrals, 
have a gate to decriminalize abortion, or expand abortion 
services, even when those activities are funded independently 
of USAID. Reinstated by President Trump shortly after he took 
office in 2017, the newly-expanded version of the gag rule 
targets organizations working on any program funded by U.S. 
global health assistance, including programs that expand access 
to contraceptives, reproductive healthcare, HIV testing, 
treatment, and prevention, efforts to fight malaria, and public 
health programs working to improve child and maternal health 
outcomes.'' And this, I will agree with those who say, 
``represents the most dangerous version of an already-damaging 
legislation ever stated.''
    And just to give an example so that people are clear, we 
don't allow Federal funding of abortion. That is another issue. 
But if you go into a clinic, like I mentioned before, in a 
small village in Mozambique where people get their general 
healthcare, if a woman who is pregnant even asks the question 
where can she get abortion, she is not allowed to be told that, 
or this clinic loses its funding. Even if there happens to be a 
pamphlet lying on a table that actually doesn't mention 
abortion, but actually mentions the name of another healthcare 
clinic or organization that actually gives abortion referral 
that does abortions, they lose their funding. So, again, I want 
everyone to be clear about this obsession that is hurting 
millions and millions of women all over the world now.
    I am going to ask you a question. You don't have to defend 
this policy. I am not asking you to do that. I don't think you 
can. But I do want to ask you about the Women's 
Entrepreneurship and Economic Empowerment Act, which identified 
key barriers to women's economic empowerment, including child 
marriage, female genital mutilation, access to education, 
gender-based violence. It unfortunately did not mention 
healthcare, but that is for another day. Could you just tell us 
whether or not, given especially these suggested cuts, do you 
have the staffing and training needed to conduct the gender 
analysis that is required, and to really get into sort of the 
meat and potatoes of the legislation?
    Mr. Green. Good question, and thanks for your great support 
of the gender work that we are all talking about. So the 
President's National Security Strategy recognizes that gender 
empowerment, women's empowerment is a national security matter. 
And feel as though we have, in the last couple of years, gotten 
some new exciting tools from WE ACT, to WGDP, to Women Peace 
and Security. And so we are excited about it.
    And just in the first year of WGDP, 12 million women have 
been touched and new opportunities created. So we can always do 
more, but we believe we have the resources necessary to 
continue on with this work. And we are excited to partner with 
you and to show you some of the early results, but to keep it 
going because it is a, I think, one of those great bipartisan 
areas where there is a very bright future.
    Ms. Frankel. And, Madam Chair, I want to just add one 
thing. A lot of people don't understand why we care on this 
committee and in Congress about healthcare in other parts of 
the world. Why would we care if somebody in the village has 
access to healthcare? Why do we care if a woman has access to 
contraception? Because you know what? If there is no better 
example of how we are all interconnected is this coronavirus. 
And when you look at the spread of disease and the spread of 
terrorism, what we know and is pretty clear, which is why you 
are in the business you are in. And I thank you again because I 
think this is such an important part of our government, is that 
when countries are more prosperous, when they are healthier, 
they are safer and the world is safer. And with that, I hear 
the knocking of the paddle there, and I yield back.
    The Chairwoman. Thank you, and I will yield to Ms. Meng.
    Ms. Meng. Thank you, Madam Chair. Last week, the GAO 
published a report on diversity at the State Department, which 
indicated that under multiple administrations, there has been a 
failure to ensure that our Foreign and Civil Service reflects 
our country's diversity. Between 2002 and 2018, the proportion 
of racial or ethnic minorities working at State full time has 
only increased by 4 percent, and those in the Civil Service has 
decreased by 1 percent. This issue is exacerbated as members of 
the Foreign and Civil Service rise in their careers.
    The report did not include USAID's workforce, but I wanted 
to ask a couple questions. One, can you tell us whether USAID's 
efforts toward a more diverse and inclusive workforce have made 
more progress than those at the State Department? Two, has 
USAID allocated funds to expand recruitment to minority 
communities, and what types of steps are you taking to 
diversify?
    Mr. Green. Great question. So I have not read the GAO 
report, and I am not going to comment on other agencies. What I 
will say is building a more diverse workforce and, perhaps even 
more importantly, creating more career opportunities for that 
diverse workforce, is a very high priority for me personally 
because I think part of the strength of our Agency and American 
leadership is to project leadership that reflects America, and 
so it is a high priority.
    Our hallmark program for this is the Donald M. Payne 
Development Fellowships, and I certainly would invite members 
of the committee to accept Don Payne fellows. They are always 
looking for opportunities, and we would be very happy to work 
with you on that. But on top of that, I will say that, and I 
think, Madam Chair, you know me well enough. I don't like 
pointing to the past where things have been, where I have seen 
problems coming in. This is a problem I saw when I first 
arrived at USAID, and it is no one person or administration. It 
goes back some years.
    We are doubling the number of people who are involved in 
administration of EEOC complaints to make sure that everyone is 
comfortable and we have a respectful, inclusive workplace. We 
have tried to create new standards of employee conduct, and we 
have been training around that. We have tried to create a 
single point of entry for those who feel as though there have 
been problems of lack of inclusivity or harassment so that it 
is easier for people to come forward and report. It is a work 
in progress. But I will say when I arrived, it was an area in 
which I felt as though we were lacking. We are not there yet, 
but I hope and believe that we are making some progress.
    Ms. Meng. Thank you. Different topic. According to UNICEF, 
roughly half the schools in low-income countries lack adequate 
drinking water, sanitation, and hygiene. Lack of privacy and 
sanitation results in inadequate menstrual hygiene and causes 
millions of girls to stay home from school each month. What are 
the advances the global community have made in the area of 
menstrual hygiene, and what more can be done by USAID and 
others to ensure that girls are able to simply attend school 
and stay in school?
    Mr. Green. Great question, and I know it is a particular 
concern of yours, and I appreciated that you have always raised 
the issue as something for us to look at closely. So on one 
level, we now endeavor to include in our humanitarian emergency 
response materials appropriate menstrual hygiene materials 
because we know that is often lacking in those emergency 
situations. But, more significantly, to your point, you are 
right that a lack of menstrual hygiene materials and 
understanding is an important indicator of gender equity. And 
so we are working to create opportunities to approach the topic 
in schools, in particular.
    I am aware of a pilot program we undertook in Ghana that 
had significant outcomes in improving for young girls and women 
not only improved self-worth and a sense of independence in 
being able to pursue opportunities, but actually and, perhaps 
more importantly, help young men in terms of image and outlook. 
And I think those are projects that should be expanded because 
I think, again, it is hard to get at full economic opportunity 
for young women if they are held back in this way. So you are 
right to raise it. It is something that we are trying to 
bolster because we think it makes a difference.
    The Chairwoman. Mr. Rogers.
    Mr. Rogers. Mr. Ambassador, we thank you for giving us 
plenty of time here today with you, and thank you, most 
importantly, for the work that you are doing. We are trying to 
put together on the Hill a supplemental appropriations bill for 
the coronavirus matter. What do you need? In addition to your 
regular budget, what do you need, besides that, to help fight 
this matter through?
    Mr. Green. Thank you for the question, and my team will 
work with yours. I think one of the important things to 
recognize when it comes to the broad response is that the 
coronavirus outbreak is going to create tremendous burdens on a 
number of healthcare systems, and so I think we need resources 
to help strengthen and replenish those. I think also we need to 
recognize that this is going to be a development setback in 
many countries, and so making sure that there are adequate 
resources to help bolster the secondary impacts.
    I think also the most obvious, additional resources to 
train healthcare workers to both the ability to test and 
diagnose for the coronavirus. I think additional resources to 
help health facilities. And I think, in some ways, most 
importantly, resources to help convey clear, accurate 
information to the public. What we have seen with various 
outbreaks over the years, and the coronavirus being the most 
challenging because it is global right now, covering obviously 
every continent but Antarctica, is combating some of the 
misinformation that is out there.
    We have seen some powers, such as Russia, quite frankly, 
put out lots of misinformation on the coronavirus in an effort 
to cause mischief. Whatever we can do to provide clear, 
accurate information on what it is and what it isn't, on the 
importance of coming forward, on making sure that people have 
trust in their healthcare facilities, I think that is a really 
important part of the long-term solution on this. So there are 
a number of ways in which we believe we are part of the long-
term answer.
    Mr. Rogers. We thank you for your testimony here today, and 
we wish you good luck.
    The Chairwoman. In conclusion, and I thank you for your 
last comment because it is a perfect segue to an issue which we 
haven't talked about this morning, and that is USAID Countering 
Malign Kremlin Influence framework. The Russian government, as 
you said, is pursuing efforts to undermine democracy, interfere 
with elections in the United States and in Europe, and fanning 
the flames of nationalism in Europe. Last year, USAID rolled 
out its Counter-Malign Kremlin Influence Development framework. 
I would be interested to know something about it because I know 
almost nothing. How has the framework impacted USAID 
programming in the region in results to date? How is USAID 
supporting regional programs in Europe, including in Central 
Europe, to address disinformation and rising nationalism? How 
much funding does USAID devote to civil society and other 
regional programs in Central Europe?
    And once again, the administration is proposing significant 
cuts to bilateral development aid to countries like Ukraine, 
for which the administration proposes a 42 percent cut; 
Georgia, for which the administration proposes a 54 percent 
cut. So how can you explain to us and assert that the 
administration is serious in pushing back against Russia while 
proposing cuts to countries such as these that are on the front 
line of Russian aggression? I know the hour is late, but there 
has not been any discussion, and many of us are very, very 
concerned, especially with the elections coming up here. Thank 
you.
    Mr. Green. Thank you, Madam Chair. I have actually had a 
couple of trips to Europe recently. I was at the Munich 
Security Conference, and then prior to that took my first trip 
to the Balkans and was in North Macedonia, Albania Kosovo, and 
Bulgaria. And in each of those areas, we spoke a great deal 
about the Countering Malign Kremlin Influence framework. So 
what we are trying to do regionally and, in some cases, country 
by country, is develop economic independence so that they are 
less dependent upon, for example, Moscow, for energy sources. 
Also in some cases, like Ukraine, help strengthen their ability 
to protect against cyberattacks.
    In the region, a lot of our attention is now in bolstering 
transparency in government. One of the best ways that we can 
think of to counter these influences is to create transparency 
so citizens are aware of influences, and they are able to push 
back. I point to, for example, the U.S.-Albania Transparency 
Academy that we are preparing to launch. We hope it will be not 
only what the prime minister there is asking for in terms of a 
tool to fight corruption and malign influences, but perhaps 
even a model for the region.
    Another tool that we are working on that I think holds 
great promise, we often talk about the importance of creating 
independent, trustworthy media, and that is important. I think 
we need to go one step further because the other side isn't 
playing by the media rules that, you know, we believe in. I 
think it is also media literacy, and it is helping citizens to 
recognize disinformation, misinformation, malign influences in 
the media process. That is something we are attempting to 
strengthen and we will continue to build. So we have a lot of 
work to do, but we remain committed to countries like Ukraine 
and their stated goal to look more westward. And we will do 
everything we can to make sure that they have the tools and 
resources to pursue that.
    The Chairwoman. Let me just say in conclusion as I close 
the hearing, this is a very personal interest of mine. I am 
passionate about it. And perhaps I can have a roundtable where 
the people who are working on this issue could come and brief 
us because I know many of us are concerned about this. So 
perhaps, first, you can do a memo for us just giving us a 
better idea of exactly what you are doing, where you are doing, 
and then we can follow up with a discussion.
    But as I close this hearing, I want to thank the committee. 
I want to thank you for your time.
    This concludes today's hearing, and the Subcommittee on 
State, Foreign Operations, and Related Programs stands 
adjourned. And thank you so much for appearing before us.
    [Material submitted for inclusion in the record follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                           Wednesday, March 4, 2020

    EXPORT AND FINANCE AGENCIES BUDGET REQUEST FOR FISCAL YEAR 2021

                               WITNESSES

THOMAS HARDY, ACTING DIRECTOR, U.S. TRADE AND DEVELOPMENT AGENCY
KIMBERLY REED, PRESIDENT AND CHAIRMAN, EXPORT-IMPORT BANK OF THE UNITED 
    STATES
ADAM BOEHLER, CHIEF EXECUTIVE OFFICER, U.S. INTERNATIONAL DEVELOPMENT 
    FINANCE CORPORATION

             OPENING STATEMENT BY CHAIRWOMAN LOWEY

    The Chairwoman. Good afternoon. The Subcommittee on State, 
Foreign Operations, and Related Programs will come to order.
    Chairman Reed, Acting Director Hardy, CEO Boehler, thank 
you all for joining us today.
    Unfortunately, the administration has once again signaled 
its ill-advised and irresponsible approach to foreign affairs 
by proposing a nearly 20 percent cut to foreign assistance at a 
time when actors do not share our values. China and Russia are 
increasingly influencing foreign development assistance. This 
proposal, if implemented, would be disastrous with no coherent 
strategy.
    The budget request demonstrates that the administration 
does not grasp the impact of global development on our own 
national security nor the benefit of efforts that promote 
economic growth while engaging American companies.
    Though the administration touts increases to private sector 
engagement in global development, the budget proposes 
exorbitant increases to some programs while cutting or even 
completely eliminating others that are proven to have a 
substantial role in engaging the private sector to invest in 
risky emerging markets.
    The administration's proposed shutdown of the U.S. Trade 
Development Agency is one example of the lack of understanding 
by the administration and I, clearly, do not support this 
proposal.
    USTDA facilitates opportunities for U.S. companies that 
promote sustainable development across the globe and levels the 
playing field, thereby increasing exports for American 
companies of all sizes and jobs for American workers.
    Further, the agency has secured a $111 return on investment 
for every dollar spent. That is $111 in U.S. exports for every 
dollar in invested in emerging markets.
    It does not make sense, in my judgment, to hold USTDA's 
ability to provide such results which achieves strategic 
foreign assistance objectives and, indeed, put America first.
    EXIM Bank also supports these priorities and helps American 
companies and small businesses export abroad through financing 
support and also by reducing the risk for U.S. goods and 
services to compete in overseas markets.
    In fiscal year 2019, nearly 90 percent of EXIM's 
transactions supported small businesses. This promotes job 
creation and global competitiveness for local American 
businesses, and now that EXIM is reauthorized through 2026 and 
has quorum restoring EXIM to its full financing capacity, I am 
interested in strengthening its ability to ramp up support for 
U.S. business overseas.
    I have been proud to support the United States 
International Development Finance Corporation along with 
colleagues from both sides of the aisle.
    However, I am concerned that a 288 percent--you hear that? 
Two hundred eighty-eight percent increase for a consolidated 
account line that includes the DFC's Equity Finance Program may 
be too much too soon.
    The DFC has only been operational for three months and for 
this committee to further invest in a new institution we must 
see evidence of success, which will take time. Building a 
sustainable institution must be done strategically and with 
consideration to lessons learned through past efforts, the 
context of evolving markets and related needs, and data-driven 
programming.
    The President's budget proposal focuses on the short term 
and would both hurt American businesses and damage our local 
standing. This is particularly concerning now as the spread of 
coronavirus has disrupted markets and the potential for future 
shock exists.
    Fortunately, this committee recognizes that strong 
sustained U.S. leadership combined with a global effort that 
leverages private sector resources towards sustainable 
development helps open global market opportunities.
    The complementary efforts of USTDA, EXIM, and DFC are 
critical to this process. This is why I would like to see all 
of them succeed, which requires adequate resources and 
thoughtful policy.
    As chairwoman, I have every expectation that we will 
produce a bill that maximizes each taxpayer dollar while 
maintaining responsible investment in export and financing 
efforts that promote U.S. businesses while supporting 
sustainable global development.
    Before we move to your testimonies, let me turn to Mr. 
Rogers, the ranking member, for his opening statement.

         OPENING STATEMENT BY RANKING MEMBER HAL ROGERS

    Mr. Rogers. Thank you, Madam Chair.
    Mr. Boehler, Chairman Reed, ActingDirector Hardy, welcome 
to the Subcommittee on State and Foreign Operations. This 
hearing involves important agencies of the government that are 
at the junction of development policy and commercial diplomacy.
    Nearly two decades ago, a distinguished American diplomat 
wrote that the position of the United States as, quote, ``The 
best place in the world to do business, the most reliable in 
which to buy, the most lucrative in which to sell, and the 
safest and surest in which to invest or raise capital. It is 
the cause, not an effect, of American global leadership,'' end 
quote.
    He went on to say that protecting and expanding the U.S. 
role as the world's supplier and customer of choice for goods 
and services, ideas, capital, and entrepreneurial energy should 
be a foreign policy objective second only to security homeland.
    That statement is even more true, I think, today. The 
global economy has undergone a dramatic transformation in 
recent decades with U.S. competitors using comprehensive 
national strategies to promote trade and investment through 
robust export and project finance, extensive technical 
assistance, and strong political backing from their national 
governments.
    We need look no farther than China's ambitious Belt and 
Road Initiative with its aggressive use of government financing 
for infrastructure development in emerging markets to see the 
clear relationship between commercial diplomacy and U.S. 
national security. The Congress supported creation of the new 
U.S. International Development Finance Corporation in large 
measure because of the growing geoeconomic challenge from 
China.
    Another motivation was the realization that a more 
strategic approach was needed to address key U.S. development 
priorities such as more effectively partnering with the private 
sector to expand economic opportunities in frontier markets.
    I look forward to discussing the changes in the DFC's 
program funding for this fiscal year including financing of 
equity. I am glad to see that another important tool of our 
economic statecraft, U.S. Export-Import Bank, has a fully 
functioning board at last and a new long-term authorization 
because export credit agency financing is a powerful instrument 
used by other countries to gain competitiveness for their 
industry.
    In the absence of competitive private sector loans, 
financing from EXIM is often the critical factor in completing 
the deal. This is particularly true of smaller U.S. companies 
who may need assistance with supply chain finance.
    Technical assistance, grants from the U.S. Trade and 
Development Agency such as for feasibility studies and 
technology training visits, is also a critical element of their 
ability to help U.S. companies build relationships with clients 
in challenging markets.
    Despite the proposed elimination of USTDA in the budget 
request, key stakeholders continue to praise its technical 
assistance as an important tool to neutralize destructive 
practices by U.S. competitors.
    We appreciate the role all of your agencies play in helping 
to strengthen U.S. commercial competitiveness and advance our 
national interests abroad.
    We look forward to your testimony, and I yield back.
    The Chairwoman. Unfortunately, we are called to vote, an 
important part of our responsibility, and I want to apologize 
in advance that I am going to have to stay on the floor because 
the supplemental will be coming to the floor.
    One of my colleagues will return and she will have the 
pleasure of hearing your testimony with my other colleagues. So 
I am going to adjourn.
    Mr. Rogers. Recess.
    The Chairwoman. Oh, recess. I am going to recess and--did 
you vote?
    Ms. Frankel. No.
    The Chairwoman. Some of our colleagues are on the floor now 
and are voting and coming back here.
    Thank you again in advance for appearing before us and I 
look forward to reading your testimony.
    Thank you.
    [Recess.]
    Ms. Lee [presiding]. OK. The hearing is called to order. 
Thank you very much for being here. I will be calling on 
members based on seniority of the members that were present 
when the hearing was called to order and I will alternate 
between majority and minority. Each member is asked to keep 
their questions within five minutes per round.
    Acting Director Chairman Reed, Boehler, we will be happy to 
place your full testimonies into the record. So if you would be 
kind enough to summarize your oral statement. I want to make 
sure that we leave enough time for everyone's questions.
    So we will begin with Acting Director Mr. Hardy and then 
Chairman Reed and finishing with CEO Boehler.
    Thank you.

                 OPENING STATEMENT BY MR. HARDY

    Mr. Hardy. Vice Chair Lee, Ranking Member Rogers, members 
of the subcommittee, thank you very much for having me here 
today.
    It is my pleasure to be able to be here to talk about USTDA 
and its work around the world and the impact it is having both 
on our partners abroad and right here at home.
    As Chairwoman Lowey noted, the President's fiscal year 2021 
budget proposes to eliminate funding for the U.S. Trade and 
Development Agency.
    As such, in today's testimony I want to focus on USTDA's 
statutory mission and what we are currently doing to advance 
our sustainable economic growth in our partner countries and 
how that is opening markets for U.S. goods and services in a 
dramatically changing and increasingly competitive 
international environment.
    As we all know, the American worker is the most productive, 
innovative, and dedicated the world has ever known. When given 
a fair opportunity, U.S. workers and U.S. companies compete and 
win anywhere.
    Too often, however, our products and workers are blocked by 
trade barriers that restrict market access or are disadvantaged 
by subsidized foreign competition that creates an unfair 
playing field.
    Congress created USTDA under the Jobs For Exports Act to, 
quote, ``promote United States private sector participation and 
development projects in developing and middle-income countries 
with special emphasis on economic sectors with significant U.S. 
export potential,'' closed quote.
    USTDA is, therefore, mandated to engage the private sector 
in infrastructure projects when technology options and project 
requirements are being defined.
    This early engagement ensures an honest and thorough 
evaluation of the impact on labor as well as the environment, 
and the financial sustainability of all activities USTDA 
supports to ensure they can be financed on commercial terms.
    To accomplish our mission, the agency provides grants to 
overseas project sponsors that contract with American firms to 
undertake these project preparation activities. This funding 
may support a feasibility study, launch a pilot project, or 
support an array of technical assistance.
    USTDA also connects project sponsors with U.S. businesses 
through its reverse trade missions that bring foreign decision-
makers to the United States to see the design, manufacture, and 
operation of U.S. goods and services before a procurement 
decision is made.
    These activities produce results, as Chairwoman Lowey 
noted, for our foreign partners and U.S. industry. For every 
dollar USTDA invests in its project preparation activities, it 
is generating, on average, $111 in exports of U.S. manufactured 
goods and services.
    This success is made possible by USTDA's ability to make a 
small investment up front that paves the way for financing of 
major infrastructure from the likes of Export-Import Bank, the 
United States International Development Finance Corporation, 
multilateral development banks, and regional lenders.
    Last summer, I was fortunate to see firsthand the real-
world impacts of this investment, namely the opening of a 
cancer treatment center in Lagos, Nigeria.
    This resulted from a USTDA-hosted reverse trade mission for 
Nigerian hospital officials that introduced those officials to 
American health care technologies. These hospital officials 
were from the Lagos State Teaching Hospital.
    As a result of USTDA's early and targeted investment, the 
Nigerian Sovereign Investment Authority financed the 
establishment of this world-class oncology center that is 
transforming cancer treatment in the most populous and largest 
country in Africa.
    As the President stated in his National Security Strategy, 
the United States must strengthen cooperation with allies on 
high-quality infrastructure.
    As a result, USTDA is utilizing its current appropriation 
and transfer funding from the Department of State to further 
open markets for U.S. companies and unlock infrastructure 
development opportunities.
    At the direction of the NSC, USTDA is working with Japan 
and other likeminded partners in new and unique ways to advance 
this quality infrastructure priority in line with the National 
Security Strategy. Critical to this effort is the 
administration's Indo-Pacific vision.
    Today, USTDA is utilizing its resources to advance this 
vision which is responsive to our partners' needs for quality 
infrastructure solutions in the energy, transportation, health 
care, and ICT sectors.
    This work is directly countering China's Belt and Road 
Initiative. As you all know, you have seen firsthand in your 
travelthat BRI poses serious economic and geopolitical 
challenges, not just for the United States but for our partners 
around the world.
    As a result, USTDA is deploying all of our tools to support 
sustainable economic growth in our partner countries that 
provides a quality option and helps our partners and allies 
avoid China's debt trap diplomacy.
    This investment is laying the foundation for strong and 
stable states in the Indo-Pacific region and around the world--
states capable of preventing conflict, states capable of 
managing crises, but perhaps most importantly, states capable 
of promoting prosperity.
    It is my pleasure and great privilege to lead the U.S. 
Trade and Development Agency and a staff that is dedicated to 
advancing and achieving these critically dual trade and 
development mandates.
    Thank you very much. I look forward to your questions.
    [The prepared statement of Mr. Hardy follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Lee. I go now to Chairman Reed. Thank you.

                 OPENING STATEMENT BY MS. REED

    Ms. Reed. Vice Chair Lee, Ranking Member Rogers, 
Representatives Torres, Frankel, Meng, and other members of 
this subcommittee, thank you for inviting me to discuss the 
President's fiscal year 2021 budget request for the Export-
Import Bank of the United States.
    EXIM was established in 1934 and it is an immense honor to 
be the first woman and the first West Virginian to lead this 
agency.
    Since being confirmed on a strong bipartisan basis 10 
months ago, we have been hard at work to fully reopen, reform, 
and reauthorize EXIM to provide results for our nation's 
workers while protecting the U.S. taxpayer.
    Now that we are back in full operation, we are very focused 
on communicating to all of our stakeholders in the United 
States and around the world that EXIM is now able to offer all 
of its financing options to support U.S. exports.
    EXIM, the official export credit agency of the United 
States, has the important mission of supporting American jobs 
by facilitating U.S. exports. Our vision is Keeping America 
Strong, Empowering U.S. Businesses and Workers to Compete 
Globally.
    I love this mission and this vision as the U.S. worker is 
at the heart of everything we do.
    The President's budget for EXIM requests an administrative 
budget of $100.9 million which will enable the agency to 
effectively administer its operations and continue the 
transition to full capacity by focusing on leveling the playing 
field for U.S. exporters, supporting our nation's small 
businesses, and minimizing risk to American taxpayers.
    The request also proposes restoring EXIM's administratively 
determined pay authority which EXIM had up until 4 years ago to 
support the agency's efforts to attract and retain a talented 
EXIM workforce. AD pay is a very important tool to help us 
carry out our mission.
    When EXIM is fully operational, it is a self-financing 
agency because of the fees and interest it charges to the 
foreign buyers for the use of its programs. After paying its 
operating and program costs, EXIM has contributed a net of $9.4 
billion to the U.S. Treasury since 1992.
    EXIM estimates that in fiscal year 2021 it will fully cover 
the costs of its administrative expenses, resulting in a net 
zero appropriation and, based on projections, we will remit an 
estimated $610 million to the U.S. Treasury at the end of the 
fiscal year.
    In fiscal year 2019, EXIM authorized $8.2 billion in 
financing that is estimated to support 30,000 American jobs. 
This was more than double the $3.3 billion in financing that 
EXIM authorized in 2018. We expect to build on that progress.
    In fiscal year 2021, EXIM forecasts that the requested 
budget will enable the agency to support $20.9 billion in new 
authorizations, supporting approximately 159,000 jobs in 
districts like yours across the country.
    EXIM has averaged a default rate of less than one-half of 1 
percent over the past decade as a result of strong 
underwriting, effective risk management, and due diligence 
exercised during the authorization process and post-
authorization management of transactions.
    We achieved a major success for our nation's businesses and 
workers when Congress passed and the President signed into law 
on December 20, 2019, a 7-year reauthorization of EXIM, the 
longest in EXIM's 86-year history.
    I am grateful for the strong support of our bipartisan 
leaders in Congress including members of this committee for 
this historic effort.
    This reauthorization provides important long-term certainty 
to the world so that American businesses of all sizes can 
compete and win in a very competitive global marketplace.
    We are beginning to implement the legislation and look 
forward to working with you as we continue to analyze the 
requirements and resource needs associated with full 
implementation of this landmark reauthorization.
    I briefly want to touch on some of the new congressional 
requirements included in EXIM's 2019 reauthorization.
    First, the law provides clear direction to EXIM to address 
the threat China poses to America's economic and national 
security.
    EXIM is working to establish a program to advance our 
country's comparative leadership in the world, directly 
neutralize competing Chinese exports subsidies, and support 
American innovation and employment in 10 transformational 
industries including wireless communications, 5G, 
biotechnology, and water sanitation, to name a few.
    Next, Congress has again called on EXIM to increase its 
financing to support small business exports as well as those 
related to renewable energy, energy efficiency, and energy 
storage. We are passionate about this work and taking steps to 
better reach and educate more businesses that could benefit 
from EXIM.
    I am excited to continue working with you and your staff in 
order to do great things on behalf of America's workers and 
help see more exports stamped with those four beautiful words 
``Made in the U.S.A.''
    Thank you for this opportunity and I am pleased to answer 
any questions.
    [The prepared statement of Ms. Reed follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Lee. Thank you very much.
    Now, CEO Boehler.
    Thank you.

                OPENING STATEMENT BY MR. BOEHLER

    Mr. Boehler. Vice Chairwoman Lee, Ranking Member Rogers, 
members of the subcommittee, thank you for the opportunity to 
speak today.
    The United States International Development Finance 
Corporation became operational on December 20th, 2019, 
propelled by bipartisan support in Congress and the support of 
the President.
    As a newly modernized agency, our mission is to invest with 
private sector partners to advance the interests of American 
people through development in emerging markets.
    Many of the nations that I visited over the past five 
months face economic uncertainty and poverty. Despite 
incredible challenges, these countries and their people hold 
enormous potential.
    I personally witnessed how unleashing the power of the 
private sector advances United States interests and transforms 
the lives of people throughout the world. I have also witnessed 
the great demand for a U.S. alternative from authoritarian 
governments.
    The BUILD Act enables the United States to be that 
alternative. DFC, with our private sector partners, are 
addressing the world's most critical development challenges by 
increasing access to water, closing the financing gap for women 
entrepreneurs, and building quality infrastructure.
    We are excited to take on this tremendous responsibility. A 
strong well-resourced DFC complements and amplifies the foreign 
assistance efforts of our partner agencies such as USAID, the 
Department of State, MCC, and my partners seated here next to 
me today.
    Together, we can foster sustainable economic growth and 
advance U.S. foreign policy interests. We work best when we 
work together.
    As we scale our operations to deliver on the BUILD Act's 
promises, the administration is requesting the resources 
necessary to make DFC's model of public-private partnerships an 
important tool of U.S. development and foreign policy.
    The total budget request is $836 million. The request 
consists of $136 million in administrative support including a 
new inspector general, chief development officer, chief risk 
officer, as well as $700 million for DFC programming.
    These request reflect DFC's increased portfolio cap from 
$30 billion to $60 billion that was authorized by the BUILD Act 
as well as the additional responsibilities requested by 
Congress.
    In addition to our legacy finance programs, the BUILD Act 
provides DFC with several new tools. Among the most important 
is equity authority. This greatly expands on our ability to 
deliver on the developmental and foreign policy goals that you 
have set forth.
    The BUILD Act also established new and important other 
priorities such as feasibility studies and technical 
assistance. When Congress established DFC it specifically 
included the word development in DFC's name to reinforce our 
core mission.
    The DFC is already making significant progress on our 
development mandate. We are creating a new state-of-the-art 
development scoring system called the Impact Quotient, or IQ 
score.
    We built this system with extensive input from the 
interagency and the broader development community. IQ will 
enable DFC to more accurately measure and monitor the 
development impact of every dollar that we invest.
    We are also expanding promising and proven programs such as 
the 2X Women's Initiative. The 2017 National Security Strategy 
identified women's critical role in achieving global peace and 
stability. DFC is proud to support this commitment through W-
GDP, which seeks to economically empower 50 million women 
across the developing world by 2025.
    DFC is promoting economic opportunities for women around 
the world by expanding programs such as the Women's GDP 2X 
Initiative and we look forward to working with Congress as you 
seek to codify W-GDP.
    I am also pleased to announce that we hired our chief 
development officer, Andy Herscowitz, who is behind me over 
there. Some committee members may be familiar with him because 
he led Power Africa and I worked closely with Ambassador Green, 
and with Bonnie Glick to identify a candidate like Andy to take 
our development efforts forward.
    I will close by noting that I really appreciate the 
foresight of Congress in passing the BUILD Act. The strong 
support of Congress indicates that investment and development 
is not a partisan issue but an American priority.
    The U.S. International Development Finance Corporation, 
when combined together with our U.S. government partners, is an 
unparalleled tool for lifting people out of poverty and laying 
the groundwork for market-based economies across the world.
    Thank you, and I look forward to answering your questions.
    [The prepared statement of Mr. Boehler follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Lee. Thank you very much.
    OK. I have a couple questions for all three at this point. 
Each of your agencies I would like to get a response.
    First of all, all of you promote private sector engagement 
in different ways and so from your agencies' work what are some 
of the barriers for U.S. businesses to engage in abroad? And 
then sometimes there are business opportunities in areas where 
the private sector's capacity is limited due to governance 
issues, and so how do you handle that?
    Then the second question, of course, is around coronavirus 
in terms of how it has disrupted markets and caused upheaval in 
production and supply chains across multiple industries and 
sectors.
    So how does really a shock like this public health crisis 
affect your agencies' work and to date have you seen an impact 
on private sector engagement from your agencies' standpoint?
    And, if possible, are there plans to mitigate the impact? 
Should we be looking at something to support what those plans 
are? So we will start with Acting Director Hardy.
    Mr. Hardy. Thank you very much.
    I think the barriers that USTDA sees and the barriers that 
U.S. companies see are straightforward. They are China. We hear 
this from our partners around the globe and in the Western 
Hemisphere.
    Last week, Kim and I had breakfast with ambassadors from 
the ASEAN countries and our partner countries are looking for 
an alternative.
    They are looking for quality solutions that are built to 
last, that will provide long-term benefit to these countries, 
and China right now is investing--overwhelming what the U.S. is 
doing on a dollar for dollar basis.
    But what the U.S. provides is quality and long-term 
solutions and they are looking for that alternative and we hear 
that from our partners around the world, and that is what is 
driving the demand for us right now.
    I will say just this past week I had a really interesting 
conversation with a company, a manufacturer in Wisconsin who 
manufactures cranes and is retreating from the international 
market because they can't compete.
    China's state-run company is putting $100 million into 
local manufacturing of cranes in China and they can't compete 
on a dollar for dollar basis, and they are coming to us saying, 
what can you do--what can the U.S. government do to be 
responsive. And this company's tagline is integrity, commitment 
to stakeholders, and passion for excellence.
    And right now, we are pulling our interagency together to 
figure out a solution, how can we help change this paradigm not 
only with this one company but around the world.
    Ms. Lee. And on coronavirus?
    Mr. Hardy. Oh, on coronavirus----
    Ms. Lee. How is it affecting your agencies?
    Mr. Hardy. I think at this point it is much more at a 
agency level. We have travel restrictions now that are going to 
limit our ability to do outreach to develop our program. We 
haven't seen a direct impact on the private sector as of yet. 
But I think that there will be definitely direct and short-term 
impacts as travel restrictions continue to increase.
    Ms. Lee. So are you all developing plans now, looking 
forward to this possibly happening to mitigate the impact or 
are you waiting?
    Mr. Hardy. We have put into place travel restrictions. 
Everything needs to be personally approved by senior management 
for any travel. We have, obviously, invested in the IT 
infrastructure that allows telecommunication whether it simply 
be Skype calls. Our partners around the world are--very 
frequently we use those in our normal course of business.
    So we are just trying to look at different ways to achieve 
our mission that don't require us to be on the ground as much. 
It will be difficult but it is something that we are prepared 
to implement.
    Ms. Lee. Chairman Reed?
    Ms. Reed. Thank you. Your question gets to the heart of 
what EXIM does and I am so thrilled that we are now fully 
reauthorized and giving the world certainty that we are around 
through 2026.
    When it comes to barriers in private sector capacity, EXIM 
comes in with those specific tools such as export credit 
insurance, working capital guarantees, direct loans or loan 
guarantees to help our businesses compete and some of those, 
when the private sector is able to compete and help our 
businesses win deals we can come in and guarantee the loans 
that the private sector offers.
    But as Director Hardy mentioned, EXIM was not fully open 
for about four years and when I became a nominee in 2017 there 
were about 90 some export credit agencies around the world. I 
even had one of them tell me to my face, we are glad you are 
closed because we get your jobs.
    And so when I finally was confirmed 10 months ago there are 
now 113 export credit agencies around the world, and China has 
two formal one informal one, and China does more than the G-7 
countries combined.
    And so we are very honored to have a long-term 
reauthorization and also now are very focused on implementation 
of this new mandate that you have given us to compete with 
China and make sure that we are doing all we can to help our 
workers win deals around the world.
    Of course, we care about things like default and so we will 
be very prudent with the taxpayer dollar and review things with 
all the standards that we have.
    And I will tell you that the rest of the world has told us, 
we are glad you are back. The U.S. makes the best products in 
the world and we are very happy to have this tool to help us 
buy them.
    When it comes to coronavirus, we are actively watching. We 
come in when there are problems in our country for our workers 
and so that is why we have things like export credit insurance 
to help our businesses and we stand behind all of our products. 
We did the same after the 2008 financial crisis. Right now it 
is too early to predict. But we stand ready and we are 
monitoring closely.
    Ms. Lee. Are you planning any mitigation efforts based on 
impact or are you sort of----
    Ms. Reed. If there are claims filed we will honor those 
claims to support our small businesses. So thank you.
    Ms. Lee. Thank you. CEO Boehler?
    Mr. Boehler. So to be additive, I am going to agree with 
what my partners said, to be additive. I would say sometimes it 
is access and familiarity with a particular market, 
particularly when you are talking about frail states or smaller 
markets.
    U.S. investors don't have a lot of deals to look at and so 
if you are talking about a small entrepreneur, let us say, in a 
small country in Africa, people won't necessarily have 
familiarity because they don't see a lot of deals.
    So if we can bridge and take some risk out of the equation 
for private businesses, it opens up an onramp. So I think 
sometimes familiarity and access is a limiter.
    But the second thing I will note as a limiter are 
structural barriers and let me use a specific example. In 
Ethiopia, there are certain structural barriers to investors 
putting dollars there.
    And so we are trying to address that even at the prime 
minister level to say, look, we would love to invest and so 
would other private capital; how can we help you with technical 
assistance? And we are working with Treasury on this to 
potentially adjust some of these things which would benefit 
Ethiopia so we could flood the market with private capital. So 
those are kind of things that often we would see out there.
    From a coronavirus perspective, I would say there are two 
areas where we are traveling--and onsite. One is, let us say, 
the sourcing of deals, meeting with governments, et cetera.
    And then the second one is we have pretty stringent 
requirements for when we do a deal to ensure that it doesn't 
violate our environmental standards, human capital standards, 
and a lot of times, if there is any question in those deals we 
go onsite to ensure that we are meeting the requirements set 
forth in BUILD Act.
    So what we are trying to do is, one, how much of that can 
you do over video, quite frankly, and maybe we change some 
practices and make lemonade out of lemons a little bit and say, 
OK, is that visit necessary.
    I just did a video conference with the Indonesians the 
other day and not everything has to be a physical visit. Some 
things do. So I think in addition to normal, protecting our 
workforce from a travel perspective we are really trying to 
push the envelope to see what can we really do without 
traveling, if that is the case, and maybe even learn something 
along the way out of it.
    Ms. Lee. And do you have any specific plans or are you kind 
of putting it together?
    Mr. Boehler. Yes. I mean, obviously, so the immediate thing 
that we did is we said listen, and just following best practice 
from the USG is only mission-critical travel, not to these so 
following CDC, et cetera.
    So that was an immediate, and now what we are developing is 
the specific. OK, what are, if you will, the work-arounds in 
lieu of travel which would be more, hey, when can we use 
teleconferencing in this. And I am having my team also look at 
for meeting the deal requirements what can we actually check 
off without being physically there.
    And there are some things that we will probably need to be 
physically there and that might delay a few things. But what do 
we need to meet to make sure we meet our statutory obligations.
    Ms. Lee. Thank you very much.
    I will turn now to our ranking member, Mr. Rogers.
    Mr. Rogers. Mr. Boehler, you were recently in Colombia I 
think a couple of times in the last few months. A natural ally 
of ours, our best partner in the region, and yet Colombia is 
suffering from various scourges, one of which affects us and 
that is the drug production.
    And now, with the trouble in Venezuela, 2,000 Venezuelans a 
day seeking asylum in Colombia, and it seems to me that--and I 
think you agree--the ultimate positive answer in Colombia is a 
strong local economy--small business, small manufacturing to 
absorb some of the refugees as well as supplant or undo the 
drug traffic.
    Do you agree with that?
    Mr. Boehler. I do, Ranking Member. And the way I think 
about it is Congress, in the BUILD Act, set three priorities 
for DFC: one, drive development worldwide, two, advance U.S. 
foreign policy and national interests, and three, protect 
taxpayer capital.
    Those are the three things I always focus on, and I think 
Colombia has the potential to be a best-case scenario in all 
because from a foreign policy perspective, as you mentioned, we 
have a domestic issue drug wise. They have an issue drug wise.
    And you mentioned the Venezuelan migrants, the million and 
a half people that are there crossing the border. Investment 
could alleviate that and should alleviate that, done well.
    But beyond that, where you are talking about investment in 
that case. The farmers that produce coca are in rural 
locations, that produce coca because they don't have a good 
economic alternative, because there aren't good roads to 
transport out coffee, cacao, palm oil.
    And so, to me, it could be a wonderful opportunity to 
achieve our mandate across development as well as advancing 
U.S. interests.
    Mr. Rogers. Are you having good relations with President 
Duque?
    Mr. Boehler. Yes. I have been quite a bit, and it was a 
pleasure to see him this past Tuesday at the meetings that he 
had in the United States.
    Mr. Rogers. Does he agree with you on this concept we are 
talking about?
    Mr. Boehler. He does. We spent a lot of time with the 
administration of Colombia. Obviously, something of this 
magnitude and making a difference has to be done in 
partnership. So, absolutely, Ranking Member.
    Mr. Rogers. More than 95 percent of the world's population 
is outside of the United States. Eighty percent of the world's 
purchasing power outside the U.S. So we are starting from 
scratch here. Those are pretty difficult odds to deal with.
    Your agencies have a role in trying to expand U.S. trade 
with our neighbors around the world. How can your agency--I am 
going to ask each of you--how can your agency play a 
significant part of expanding jobs in America with exports?
    Please keep it short.
    Mr. Boehler. Sure. I will make the comment that of every 
visit I have met out there with heads of state, the No. 1, top 
thing I heard repeatedly 100 percent is, we did not want to 
take investment from that autocratic country. We wanted a U.S. 
alternative and where were you?
    And they have a good point, and I think that between the 
three of us, as well as other government agencies, we are that 
answer. And I think that means a significant amount for the 
prosperity of U.S. businesses as we look at those markets, as 
we invest and create that alternative.
    People want American companies. People want American 
businesses. They know what we represent--quality, 
infrastructure, rule of law, transparency. And I feel very good 
about our prospects together.
    Ms. Reed. EXIM is dedicated tohelping our small businesses 
and now that we are reauthorized we have given the world 
certainty that we are going to be around through 2026. That is 
key to getting us where we need to go.
    I had a great experience in your district, sir, visiting a 
wonderful company called DecoArt Paints in Stanford and 
spending some time with CEO Stan Clifford. Because now we are 
good to go for a long tenure. We are able to come in and help 
the world say, hey, let us take a look at the United States 
again.
    It is a lot of work to get our small businesses up and 
running with exports and so we are partnering with 
organizations like the Independent Community Bankers 
Association and ABA and others, and also working with something 
called delegated authority so that our banks on the ground--
when you are a small business you go into your local bank--so 
they are equipped to help share some of those tools.
    And, of course, now that we are able to do those large 
transactions over $10 million, we got $40 billion in the 
pipeline when I showed up as the new chair and reopened EXIM, 
and so we are thoughtfully going through those applications.
    And we lost some of those applications. We lost, in fact, 
$20 billion worth while we were shut. So it is getting the word 
out. Working with each of you, coming and helping the world 
know that we are back and the world should pick us.
    Mr. Hardy. Thank you. Thank you, Chairman Rogers.
    USTDA is using its current funding as the tip of the spear 
to feed the pipelines of the financial entities--EXIM Bank, 
OPIC, the DFC--using a small amount of money, as I said in my 
testimony, to develop the infrastructure and the roadmap to 
encourage financing.
    And we have a history of success. I think that the three of 
us and our agencies work well together. As I looked and 
prepared for this testimony I reviewed a geothermal power plant 
that is currently operating in Honduras, financed by the DFC or 
the previously OPIC.
    Just last year, work we did directly with Senegal to help 
them expand transmission and distribution is in the pipeline 
for EXIM right now under the $500 million commitment.
    So USTDA's role is to develop those projects so they can 
get to financing and with that having USTDA's export mandate 
where we are bringing in U.S. technology, goods and services 
into the thinking and the process and the development of these 
projects is going to best position U.S. companies to succeed 
internationally.
    Mr. Rogers. I yield.
    Ms. Lee. Thank you very much.
    Now I will yield to Ms. Torres from California.
    Ms. Torres. Thank you, and thank you to all of you for 
being here.
    I do want to do a quick follow-up to the coronavirus issue. 
As you know, we are starting to see an increase here.
    The county of L.A. just declared it also an emergency. I 
have learned that the Commerce Department sent out a notice 
last week that highlighted a change to Chinese regulations 
which would make it easier for U.S. companies to export medical 
supplies, medical supplies that are in critical shortage here 
in the U.S. such as masks that--I have a family of three 
nurses. They can't get masks while they are working front lines 
in the hospital. I went to five different stores over the 
weekend trying to find hand sanitizer. It is all completely 
out.
    So my question is the EXIM Bank consulted with the U.S. 
Coronavirus Task Force to ensure that we are not supporting the 
exportation of critically limited supplies that our first 
responders need in order to protect our communities?
    Ms. Reed. Thank you.
    We take the coronavirus very seriously. EXIM comes in with 
those very important tools to help our exporters be successful 
and we have supported in the past medical equipment and----
    Ms. Torres. I am sorry. Just a quick yes or no.
    Ms. Reed. Yes.
    Ms. Torres. The Commerce Department and EXIM coordinate to 
make sure that we are not drawing down on supplies that are not 
available to U.S. citizens in the homeland.
    Ms. Reed. So I have communicated with all key parts of our 
administration that we stand ready to be helpful in any way. 
Again, we need to have applications come in to us and we will 
promptly review any application to help our exporters get 
medical equipment to China or other places around the world.
    Ms. Torres. China is important but, you know, the most 
important--for us, the priority should be to ensure that we 
have these medical supplies here at home, available to first 
responders and to American citizens before we begin to export 
them out, right?
    Ms. Reed. Our mission, though, is a very specific mission 
to support the export of --
    Ms. Torres. But our mission--we cannot cut our nose in 
spite, you know, of our face. We have to protect our health 
needs in the U.S.
    So the left hand has to communicate with the right hand and 
we can't say our priority is to, you know, allow folks to pay 
$150 for a tiny bottle of hand sanitizer because it isn't 
available anywhere here in the U.S.
    Meanwhile, you are working to send these critically needed 
supplies to China.
    Ms. Reed. I would be pleased to work with you take a really 
hard look at our legislation and anything we can do to help 
support our country.
    Ms. Torres. I am just saying common sense--let us look at 
it and please work with the current working group that the 
President has set up to ensure that they have all of the 
supplies that they need before we start exporting them out. In 
this case, exports are no bueno.
    In relationship to the Northern Triangle of Central 
America, I am very concerned that we have not paid attention to 
major concerns and issues of public corruption.
    Every businessperson that I talk to that is trying to do 
business in the region, their number-one concern is having to 
pay off local governments and corrupt elected officials in the 
region in order to do business.
    So incentivizing by providing--the DFC signed an MOU with 
Guatemala to catalyze $1 billion in private sector investment.
    Mr. Boehler, what does catalyzing $1 billion in private 
sector investment mean and are we exposing our business 
community to huge losses, potential huge losses, because they 
are investing in Honduras, a narco government, in Guatemala, an 
extremely corrupt government.
    Mr. Boehler. Congresswoman, I want to note I agree with you 
on this and I think something like a memorandum of 
understanding, if used correctly, establishes kind of a 
framework to say this is the potential.
    This is the potential if you start really clamping down on 
corruption. I went to the inauguration of the Guatemalan 
President Giammattei and, you know, he spoke extremely well 
about it. But action has to follow words.
    Ms. Torres. And his actions have been, you know, to punish 
NGOs who are trying to promote rule of law and good democracy 
standards.
    Mr. Boehler. Yes.
    Ms. Torres. So we cannot incentivize these corrupt 
officials to continue with their corrupt ways that are causing 
all of the mass exodus in those countries, leaving families, 
babies, at our southern border seeking assistance.
    We have to provide the political support to the region and 
we cannot do that by incentivizing American dollars to corrupt 
or narco traffickers in the region, even if the narco 
traffickers are the President and his entire family.
    Mr. Boehler. Look, I 100 percent agree. I mean, this MOU is 
not a commitment and these things are not conditionless or 
blank checks. So I agree with you.
    Ms. Torres. The BUILD Act--I had an amendment and my 
amendment specifically says that assessments prior to providing 
funding must occur and must be based on these policies and 
procedures.
    The law requires DFC to have these policies and procedures 
in place, and I hope that you have policies already and that 
you can follow up. My time is up so I can't continue to take 
time from the panel. But I hope that you can follow up with my 
office.
    Mr. Boehler. We will.
    Ms. Torres. And that we can get a briefing exactly on what 
this MOU is because it is not--there is nothing transparent 
about this MOU.
    And I yield back.
    Ms. Lee. Thank you.
    Ms. Frankel.
    Ms. Frankel. First off, thank you all for being here. I 
appreciate your efforts.
    Let me start by saying thank you for mentioning the women's 
economic initiatives and which I support. I am going to have 
some questions to that but I just want to say something for the 
record, which is nothing personal against you all.
    But I agree with this initiative to empower women 
economically all over the world. But I am just--I just want to 
say for the record it is contrary to this effort for the Trump 
administration to come in here in another forum and ask for 
cuts in girls' education and women's health care, specifically 
access to reproductive care.
    So with that said, I will get to some questions for you. So 
the BUILD Act, we said that for DFC to prioritize the reduction 
of gender gaps and maximize development impact by working to 
improve women's economic opportunities throughout the DFC's 
portfolio.
    There was another provision in the BUILD Act that calls for 
gender-segregated data. So I would like you to, if you could, 
comment on each of those areas on how you are moving forward.
    And then one other question I have in this regard is the 
OPIC staff had been looking into EDGE certification, a global 
certification standing for gender equality, and I am wondering 
whether or not you are continuing to explore that. So those 
three questions, if you could respond.
    Mr. Boehler. Sure. And I am sorry. Could you repeat the 
first one again?
    Ms. Frankel. OK. The first one, the BUILD Act requires the 
prioritization--I will read it specifically--to prioritize the 
reduction of gender gaps and maximize development impact by 
working to improve women's economic opportunities.
    Mr. Boehler. Yes. And so on the first one, obviously, 2X 
and our collaboration with W-GDP has been a huge focus. We set 
up a goal initially in the first year of a billion dollars of 
investment. We exceeded that. I think we were $1.3 billion, 
$1.4 billion. We then set up --
    Ms. Frankel. Where are you investing? How are you 
investing?
    Mr. Boehler. Yes. All over the place. I mean, let me give 
you a specific example. When I was in India last week I visited 
one of our investments called Satara, which is focused on 
affordable housing for women.
    We are backing up mortgages for women that are working 
mothers and so got to see this right in place. You have got a 
number of different initiatives focused on rural communities.
    One of the things I find with women in emerging economies 
and rural is that it is very difficult for them to leave and 
work. And so some of the technology initiatives we are looking 
at, for example, coding, if there is internet access, can be a 
really effective way to improve employment on the women's side.
    But our position has been, you know, how can you be a 
successful country if you haven't empowered half of your 
workforce. And so that is something that we have pushed very 
hard.
    Your second question, I think, really relates to our 
monitoring and reporting back, and you will see that as per the 
BUILD Act. We see those requirements. That is what we are 
building toward.
    And then your third question around EDGE certification, we 
did get EDGE certification and I actually was looking at the 
numbers a couple days ago. Not only we got it last year, but 
our focus on the women's and minorities' side has resulted in 
much higher increase actually in the amount of women.
    One thing that I noticed when I came on board is that we 
were over 50 percent women, but at the very senior level, that 
was not the case.
    Our management team has greatly expanded toward women even 
since the year of our EDGE certification. So I think we are 
very much moving in the right direction and we have an 
increased commitment there.
    Ms. Frankel. I think maybe you answered. The question is 
whether you are going to actively work to identify partners who 
prioritize gender equality. Yes.
    Mr. Boehler. Yes. It is one of the considerations, 
actually, we look at. In our evaluation of deals there is a 2X 
focus, and when we do our IQ score being women-focused 
increases your development score, which would greatly enhance 
our probability of funding the deal.
    Ms. Frankel. OK. I want to thank you and I thank you for 
your commitment to that. And not to be sarcastic or rude, I 
just want to say, as I conclude my remarks, that the women we 
are getting mortgages for they need access to contraception. 
And I yield back.
    Ms. Lee. Thank you very much, Ms. Frankel.
    Now I will turn to Ms. Meng.
    Ms. Meng. Thank you, Madam Chairwoman.
    Ms. Frankel asked most of my concerns and my first question 
was about women's empowerment, too, especially women's access 
to credit.
    Just wanting to make sure and if you have any insight on 
how we are making sure that, especially with the 2X initiative, 
that women's access to credit will be institutionalized, made 
permanent, dependent, regardless of who is in charge.
    So that is my first question and I will just go to my 
second question on a totally different subject, but climate. 
Climate change poses great risks to the ability of many low and 
lower-middle income countries to fulfill development goals.
    One, although the Trump administration has announced that 
the U.S. will leave the Paris Climate Agreement, to what extent 
will the DFC help countries implement their nationally 
determined commitments to international conventions?
    And, two, in 2017, despite having strengthened its 
environmental and social policies, OPIC financed four oil and 
gas projects, which, collectively, represented over 2.3 million 
tons of CO2 per year in emissions or a 14 percent increase in 
annual emissions in these countries.
    Will the DFC continue to finance projects that rely on 
fossil fuels?
    Mr. Boehler. So on the first question, I spoke about it a 
little bit. The other thing I will just note on the side is the 
visibility that Ivanka Trump has given the 2X Initiative I 
think actually has mattered a lot. Because I know at the head 
of state level when we meet with countries, they will very much 
highlight their Women's Initiative.
    And so that focus has made it a constant thought process 
and I think that other countries know that as they look to ally 
with the United States this is an important consideration that 
we look at. And I think it has started to become really 
institutionalized.
    So, one, I think that is really positive and I think 
women's access to credit and financing, limits on those are not 
acceptable and really hinder. So a lot of our focus on 
investing has been how do you get out and remove those barriers 
from a financing perspective. So yes.
    Ms. Meng. Right. Yes. Those are all positive and just 
wanting to make sure, like, in a potential--in a future 
administration that the priorities would be the same even if 
the administration was----
    Mr. Boehler. Yes. I think the nice thing--it feels like 
this focus on women is becoming institutionalized, and so I 
think that is really nice.
    I think, especially as Congress thinks about codifying W-
GDP, the 2X brand, et cetera, it feels like it is settling in. 
And, if you will,--it feels very American and continuing, and 
not a partisan issue, which is really nice.
    Ms. Meng. Thank you.
    Mr. Boehler. Your second question around the 2017 deals, 
obviously, I wasn't there in 2017 but I will tell you what I am 
focused on, which is renewable energy. Over 80 percent of our 
deals are in that space and anything that is not renewable, 
based on the guidelines, that BUILD Act that Congress gave us, 
the bar is high. It is very high.
    It is looked at with increased scrutiny if it is not in 
that category. So that is my general commitment. I will tell 
you, I would much rather do a deal renewable than not, and so 
it will face a higher bar based on the statutory requirements 
that we have in BUILD Act.
    Ms. Meng. Thank you. I yield back.
    Ms. Lee. OK. Thank you very much.
    Let me ask a couple of questions of all of you in terms 
of--my first question has to do with the utilization of 
minority-owned businesses.
    As I travel throughout the world, I am always looking to 
see what partnerships and what contracts where there are 
business arrangements with U.S. firms. I never see African-
American companies, I never see Hispanic companies, and I never 
see Asian Pacific-American companies.
    How do you all--first of all, when you do business with 
American companies as partners in any of your programs, how do 
you address this?
    And I would like to also ask if we could get a report back 
with regard to the utilization, the partnerships, the 
arrangements you have with minority-owned businesses 
disaggregated by African American, Asian Pacific-American, and 
Hispanic businesses.
    Mr. Hardy.
    Mr. Hardy. Thank you. I think I will start at the big macro 
level, which is the small business, and then get down to the 
micro level. USTDA is proud that we have over 60 percent of our 
FAR contracts are committed to small business, and when we 
drive down deeper a significant portion of those are dedicated 
or in the 8(a) program that oftentimes are designed for a 
minority-owned business, Hispanic-owned businesses.
    We can give you a clear breakout, but a significant amount 
of our FAR contracts are set aside for that 8(a) program and 
our overall number is over 60 percent of all contracts at USTDA 
funds under the FAR is small business.
    Ms. Lee. OK. I would like to see that breakout. I am a 
former 8(a) contractor myself and it was very difficult as an 
African-American woman to break in.
    And so I would like to see, again, the data disaggregated 
based on the good work that you are doing in terms of the U.S. 
Trade and Development Agency.
    Mr. Hardy. We would be happy to, and we have--the 8(a) 
program has been very successful for us to get companies, small 
companies, that have--and as you know as an 8(a)--former 8(a)--
having that mentorship that that 8(a) program provides to small 
business has been very helpful for us to get not only smaller 
business started but help them get the capacity to expand 
longer term.
    Ms. Lee. OK. Thank you very much.
    Ms. Reed. I am really taking this program that we have at 
EXIM called Women and Minority-Owned Businesses to the next 
level. I love it and I believe in it.
    We have got a great staff and we know that it takes a lot 
of dedicated staff time to ensure that we are reaching out, 
especially as Director Hardy mentioned with our small 
businesses.
    So in fiscal year 2019, we did $441 million in 
authorizations for women- and minority-owned businesses and we 
are going to increase our staff that focus on that at EXIM over 
the next few months. We are going to go from 11 to 13 of our 
staff.
    And I want to just touch on some of the groups. You asked 
us to identify who our partners are and so I have partnered 
with the Minority Business Development Agency, the National 
Minority Supplier Development Council, Women's Business 
Enterprise National Council, the U.S. Hispanic Chamber, and the 
National Veterans Business Council.
    But really look forward to doing more outreach, coming with 
you and doing that, and as one of the 100 women leaders in STEM 
I know that we need to do all we can at all levels, in the 
private sector as well as in government.
    So I am pleased to say that of our 373-person workforce at 
EXIM, 40 percent--46 percent identify as nonwhite and 53 
percent of our workforce is female.
    Ms. Lee. Thank you very much, and I would like to get a 
report back, though, with, again, disaggregated--African-
American, Hispanic, Asian Pacific-American.
    Ms. Reed. With those numbers.
    Ms. Lee. Thank you very much.
    Mr. Boehler. Vice Chairwoman, got you on the report. I will 
be happy to do it. I think two things, to be additive. One is I 
think when we invest in countries in the United States, we have 
great Diaspora populations. I mentioned Ethiopia before. You 
have a great Diaspora population in Virginia, really close. A 
Caribbean population in the United States.
    On the Western Hemisphere, a Latin American population in 
the United States, which I think you have people that have 
moved from those countries, which could be great opportunities 
and I think that will be phenomenal.
    The second thing is Kim and I share different reasons--Kim 
being newly reauthorized, my agency being newly created--
probably some opportunity to go out and to let U.S. businesses 
know who we are.
    So I think it is probably helpful and we could do a tour 
together but happy to do it together with Members in districts 
to advertise this, too, because we can always do better and we 
are new. So I think that would be helpful.
    Ms. Lee. Thank you very much. And, again, whatever data you 
have I would like that back.
    Mr. Boehler. Understood. Yes.
    Ms. Lee. But I would also suggest that you look at the Tri-
Caucus, the Black, Hispanic, and Asian Pacific-American Caucus, 
as you move out to raise awareness about this.
    Mr. Boehler. Yes. To do that.
    Ms. Lee. Mr. Hardy, let me ask you about your agency. Now, 
the Access to Africa Initiative, that has helped facilitate 
transactions that build sub-Saharan Africa's infrastructure 
using American goods and services.
    And as we know, in the President's budget it zeroes out TDA 
operations. So if TDA operations cease, what do you anticipate 
will happen, first of all, to ongoing projects in sub-Saharan 
Africa, but secondly, and again, as I move through the 
continent of Africa quite a bit every year I understand the 
investments that China is making.
    I see this each and every day, and if in fact we want to be 
competitive and want to have a larger footprint there for all 
of the reasons you stated, why in the world would we zero out 
operations that would help U.S. companies and help ongoing 
projects in Africa?
    Mr. Hardy. Let me start with the ongoing projects. We have 
worked closely internally within the agency and OMB to manage 
how we would draw down the agency, draw down staffing, and the 
long-term projects.
    Because you are right, those do take a long time to--for 
our investments to come forward to financing, and that would 
include potentially having to move some of our authorizations 
and commitments to another government agency in the out years 
if, in fact, that Congress and the administration move forward 
with closing USTDA.
    What would it mean if USTDA was eliminated? I think that we 
would--there would be a hole. But U.S. companies would be able 
to step into that hole. It would be--it is a challenge, as I 
talked about in my testimony, and there is a very competitive 
market.
    You have players that are not playing by the rules and 
companies are suffering. U.S. companies are suffering greatly. 
Companies in your district, companies around the country.
    And there would be a hole if we weren't there but it would 
be a hole that the budget request says that U.S. companies 
could step into.
    Ms. Lee. I think it would be a deeper hole just in terms of 
the geopolitical dynamics that this message would send in terms 
of the U.S. versus China. I mean, I think that this is 
something I hope this committee will look at and address.
    Let me ask you, Mr. Boehler, the relationship between the 
African Development Bank--I think it was $54 million request 
for the first aid installments--and the Millennial Challenge 
Corporation, I think it is $800 million. It is down from $905 
million in the past 2 years.
    What does the relationship between the African Development 
Bank and the MCC look like? I have visited the African 
Development Bank a few times and I think it is doing quite an 
amazing job with minimal resources.
    And so I am trying to understand what is taking place now 
in terms of the partnerships and this reduction in funding.
    Mr. Boehler. First, so Vice Chairwoman, I am not 100 
percent sure related to MCC and the African Development Bank. I 
know that we have looked to partner with them at DFC, so we 
established kind of a memorandum of understanding to look at 
joint projects in Africa together.
    I met Dr. Agustina a number of times and really, I think 
they are aligned in our view and I always like partnering with 
local partners. But I couldn't comment--I wouldn't want to 
comment in detail on MCC and that area because I am not----
    Ms. Lee. Well, maybe there isn't a relationship between--I 
mean, you know, there are so many different agencies.
    Mr. Boehler. Yes.
    Ms. Lee. And I am trying to see how the coordination and 
collaborations take place specifically on the continent of 
Africa since it is such a neglected continent.
    Mr. Boehler. What I could reflect on, if it is helpful, 
Vice Chairwoman, is how we work with MCC with it in Africa or--
would that be helpful?
    Ms. Lee. Yes, that would be helpful and also just in terms 
of your background.
    Mr. Boehler. Yes.
    Ms. Lee. You know, in business it is a very difficult 
region in Africa.
    Mr. Boehler. Yes.
    Ms. Lee. And so some countries in Africa receive the 
private investments. Others receive little or none.
    Mr. Boehler. Right.
    Ms. Lee. And so I am glad you are there. But it is a 
challenge.
    Mr. Boehler. Yes.
    Ms. Lee. And so I am going to try to stay on top of this 
with all these agencies because I think we have a window of 
opportunity now. We are losing that window very quickly.
    Mr. Boehler. Yes. And you correctly identified, Chairwoman, 
around China and the issue there, which is, as you know, very 
real. So I will reflect a little bit on MCC and then what we 
are trying to do not only in bigger countries that are known, 
like South Africa, but other countries that are not as 
developed.
    Within MCC, when MCC enters into a compact, it can take a 
while. There are a lot of requirements. And so one way that 
Sean, who runs MCC, and I have looked at working together is 
beforehand investing to help countries reach that threshold 
potential so that they could enter a compact, because there is 
a lot that can happen before that.
    And then even once they enter a compact, because his money 
is grant money, how could we surround and work together. And, 
again, I think we are best when we work together and I know 
that we have meetings, actually us, with MCC all the time 
around, now we are looking at this--how could we have EXIM come 
in and how could we do technical assistance before they get to 
that threshold.
    So I think it is a really good way we can work together and 
I think you are right, our timing is good because we are 
finally operational and there is a lot of focus on it, given 
development in China.
    And then the only other thing I will note is I very much 
view our focus at, because we are a development agency first 
and foremost, is to enter into fragile states and developing 
states and not just where it is easiest. And so that will 
continue to be our clear mandate because that is what has been 
given to me by Congress and I will follow that mandate.
    Ms. Lee. Great. And my final--did you have something?
    Mr. Hardy. Thank you. If I could just follow up on Africa.
    I want to assure you that Africa is not the neglected 
region. I have spent over 20 years working in Africa and have 
seen success after success after success of USTDA making that 
early investment and how it has transformed people's lives.
    Whether it be a digital inclusion in the townships outside 
of Cape Town, the deployment of what is now a subsea--undersea 
fiber optic cable that is bringing broadband access from the 
southern tip of South Africa all the way up to Egypt and the 
transformative impact that that is having.
    And just this past year at the CCA conference we launched 
an initiative called Access Africa that is designed to take 
those successes and expand our investment in ICT infrastructure 
to ensure that the IT infrastructure is best being able to help 
Africans across the continent.
    Ms. Lee. Yes, Chairman Reed?
    Ms. Reed. Thank you.
    Vice Chairwoman, I just want to underscore how committed 
EXIM also is to sub-Saharan Africa. Congress has asked us to 
prioritize sub-Saharan Africa, and back in September we stood 
up a Sub-Saharan Africa Advisory Committee.
    They sent a report to Congress with some wonderful 
recommendations. My fellow board member, Judith Pryor, I have 
asked her to take on that as one of our key objectives.
    And just so you know, we have reopened EXIM. We approved 
the largest deal in the history of EXIM last year and that was 
to the country of Mozambique, a $5 billion deal that will 
transform the country.
    And because EXIM was reopened, originally China and Russia 
were in the deal and they got kicked out because the Mozambique 
government and those in Mozambique wanted to buy our U.S. goods 
and services.
    So that is going to support 16,400 jobs across the country 
and we are working really hard. I don't know if you know Florie 
Liser, who heads the Corporate Council on Africa, but she is on 
our advisory committee and I am going with her to Africa in a 
couple months.
    As soon as I was sworn in, President Trump asked me to lead 
his delegation to the swearing in of Cyril Ramaphosa in 
Pretoria, South Africa, and it was such an honor to be there 
and sit down with all of the potential business leaders--actual 
business leaders--but for our potential business deals that 
could happen now with Africa.
    So we have done preliminary commitments in Cameroon and 
Senegal to help some small businesses be successful there and I 
really hope that we get to celebrate something from your 
district to Africa as well. So we will work hard on that.
    Ms. Lee. Thank you very much.
    OK. Mr. Boehler, on thinking out of the box and really 
coming up with new ideas, this new form of financing--hybrid 
financing--it is intended to be like equity but treated like a 
loan under the Federal Credit Reform Act, is it equity? Is it 
not equity?
    Is it another form of--seems like it is another form of 
debt financing, which OPIC has been doing for some time. Can 
you kind of drill down just a little bit on that?
    Mr. Boehler. Yes. I think when you think about the 
difference between debt and equity, there is a whole spectrum 
of different products within there, and so kind of some of the 
concept here is, and really, ultimately, what is the difference 
between that debt and equity because they can look like each 
other.
    A lot of times, it is where you sit in the stack where 
first money comes out, your governance rights is common, and 
whether there is redemption. Those tend to be the three 
differences.
    And so as you move towards senior lending you move up the 
stack, mezzanine lending, more senior loans. And so the idea is 
really to be off--to be able to offer a spectrum of different 
products that fit the right situation.
    There are times, for example, when the senior lending 
stack--if you will, the mezzanine stack--that is a riskier 
layer. So you won't find theprivate market willing to do that. 
But they would take a certain stack.
    There are times where equity is really appropriate. I will 
give you an example. If you are a small entrepreneur in Africa, 
like we are talking about, saddling that entrepreneur with 
debt, probably be counter to what we would want to do in terms 
of--to your point, out of the box, is really to have a spectrum 
of products so that you can use the right thing for the right 
situation.
    Ms. Lee. OK. Well, you have a development mandate, though, 
right?
    Mr. Boehler. Absolutely.
    Ms. Lee. So this is more associated with more of a business 
model.
    Mr. Boehler. What I would say on this is, to me, it is not 
business model. Again, it is using the right product for the 
right situation. So by way of example, if you are using a 
riskier debt product that a private market won't take, you are 
enabling the private market to do deals to drive development.
    This equity example, you are enabling entrepreneurs that 
you wouldn't want to saddle with debt. So when I think about 
our financial products, we are always using them to drive a 
development purpose. That is our mission.
    Ms. Lee. So are you testing it or are you using it without, 
say, modeling it?
    Mr. Boehler. There is nothing we won't enter into that is 
not heavily modeled and then evaluated not only by our internal 
credit process, which is an independent credit process, all the 
way through, but then over by OMB as well.
    So everything we do, it is always a refined, specific 
process that is career led from that perspective, too. Because 
I think it is critical that we have an independent view from a 
credit perspective and then it goes over to OMB and, you know, 
they have sharpened pencils there.
    Ms. Lee. Well, keep us posted on how this is going. I am 
very interested in this.
    Mr. Boehler. Yes.
    Ms. Lee. Making sure that it is going to do what it is 
supposed to do.
    Mr. Boehler. That makes sense.
    Ms. Lee. OK. Thank you very much.
    Let me thank the panel for your time. It has been very 
informative and interesting, and glad to see you here.
    And any reports or any requests that members made we look 
forward to receiving those in a, hopefully, expedited fashion.
    So this concludes today's hearing. The Subcommittee on 
State, Foreign Operations, and Related Programs stands 
adjourned.
    Thank you again.
    [Material submitted for inclusion in the record follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                          Wednesday, March 11, 2020

                       DEPARTMENT OF THE TREASURY

                                WITNESS

HON. STEVEN MNUCHIN, SECRETARY, DEPARTMENT OF THE TREASURY

             OPENING STATEMENT BY CHAIRWOMAN LOWEY

    The Chairwoman. The Subcommittee on State, Foreign 
Operations, and Related Programs will come to order.
    Secretary Mnuchin, thank you so much for joining us today.
    The administration's fiscal year 2021 budget request, which 
proposes unsustainable cuts of nearly 20 percent for foreign 
assistance, demonstrates once again that the administration 
just does not value the impact of the global economy on our 
national security, nor does it recognize the merits of poverty 
reduction through multilateral development.
    Fortunately, this committee does. The Treasury Department's 
international programs are central to achieving strategic 
objectives overseas, and investing in these areas and our 
multilateral partners builds resilience and promotes stability 
that is essential to American interests.
    The administration's repeated attempts to end cooperation 
with multilateral organizations threaten our economic and 
national security and weaken our global influence and 
credibility. This creates opportunities for other countries, 
such as Russia and China, to further encroach into areas where 
we have chosen to diminish our leadership on the world stage. 
As they continue to expand their reach, they will not represent 
American values or interests.
    With the effects of climate change increasing, I am worried 
about the message we send to the rest of the world by reneging 
on prior commitments, such as cutting in half the U.S. pledge 
for the Global Environment Facility, providing less than half 
of the $3 billion pledge to the Green Climate Fund, and 
withdrawing from the Paris agreement.
    This is of particular concern, given the administration has 
touted that tree planting--although it is a good idea--but that 
tree planting will solve our climate crisis.
    Given that climate change will impact almost every program 
funded by this bill, I, frankly, don't understand why the 
administration refuses to stand behind commitments or make 
investments that could harness the power of U.S. businesses to 
innovatively address this challenge. Further, by neglecting to 
contribute to the Global Agriculture and Food Security Program 
and the International Fund for Agricultural Development, this 
administration signals a fundamental lack of understanding 
about the importance of risk mitigation and preparedness.
    Just as the novel coronavirus has disrupted markets, shocks 
like droughts, floods, or invasive pests can wipe out crops and 
contribute to food price spikes that quickly create conditions 
for instability, violence, and migration. While we don't always 
know when these events will occur, we know there is an 
increasing likelihood they will become more frequent and severe 
due to climate change.
    When communities are prepared to mitigate the impact of 
such events, they are better able to prevent lasting effects 
that are costly and threaten our own security. Diligence and 
leadership matter. We must demonstrate that the U.S. is a 
strong, reliable partner, just as we must stand unwaveringly 
behind our commitment to promoting democratic values.
    I am concerned about the Treasury Department's engagement 
in U.S. efforts to combat terrorist financing networks and 
enforce sanctions against rogue nations. While sanctions can be 
a valuable tool to mobilize governments to cease human rights 
violations and take democracy and rules more seriously, the 
administration's approach is neither consistent nor effective.
    Not one of the dangers I have just outlined is positively 
addressed by your budget request. As chairwoman, I have every 
expectation that we will produce a bill that maximizes each 
taxpayer dollar while maintaining responsible investment with 
our multilateral partners.
    Again, I welcome you here, and before we move to your 
testimony, let me turn to Mr. Rogers, the ranking member, for 
his opening statement.

           OPENING STATEMENT BY RANKING MEMBER ROGERS

    Mr. Rogers. Thank you, Madam Chair.
    And Secretary Mnuchin, welcome to our subcommittee. We 
appreciate you being here and look forward to your presentation 
on Treasury's fiscal 2021 international programs request.
    Your Department is seeking $1.59 billion in the coming 
fiscal year for international programs. That is about 8 percent 
less than the fiscal year 2020 enacted level. Key elements of 
the funding request would go towards meeting the annual U.S. 
commitments to the international financial institutions, debt 
restructuring, and Treasury's Office of Technical Assistance.
    The decrease from the enacted level apparently is primarily 
due to a negotiated reduction in the pledge to the 
International Development Association of the World Bank Group. 
This outcome is part of a larger package of reforms that the 
U.S. has advanced at the World Bank, and I look forward to 
hearing how those initiatives more closely align the World Bank 
with U.S. national security, foreign policy, and economic 
priorities.
    In addition to such reforms, I hope you will address with 
us this morning your role in providing the highest level of 
oversight to these institutions. I will get into more specifics 
during our question and answer period.
    Mr. Secretary, another topic that we would like to hear 
about, of course, is China. As you know, our Government has 
identified the renewal of great power competition as a defining 
feature of the 21st century. With respect to China, the United 
States has developed a whole of government approach to respond 
to Beijing's expanding global reach.
    For the Department of Treasury, this response must include 
countering China's authoritarian development with a more 
transparent and market-oriented model. I hope you will address 
this on the elements of a comprehensive U.S. economic strategy 
toward China that offers a meaningful alternative to Beijing's 
predatory trade and infrastructure financing.
    Finally, I would be remiss if I didn't raise the issue of 
the day, the spread of COVID-19 from China to much of the rest 
of the world and its impact on the global economy. I hope you 
will speak to the ways in which the administration and Treasury 
are helping to mitigate the economic impact of this disease, 
both domestically and internationally.
    We appreciate your service to your country, and look 
forward to your testimony.
    I yield back.
    The Chairwoman. Thank you.
    I will be calling on members based on seniority of the 
members that were present when the hearing was called to order. 
I will alternate between majority and minority. Each member is 
asked to keep their questions to within 5 minutes per round.
    Secretary Mnuchin, we will be happy to place your full 
testimony into the record. I know you have a hard stop of 
12:00, noon. So if you would be kind enough to summarize your 
oral statement, I want to make sure we leave enough time to get 
to everyone's questions.
    But, Secretary Mnuchin, please proceed as you desire. Thank 
you.

             OPENING STATEMENT BY SECRETARY MNUCHIN

    Secretary Mnuchin. Thank you. I will be very brief.
    But first of all, thank you, Chairman Lowey, and thank you, 
Ranking Member Rogers and the members of the subcommittee. I am 
pleased to be here with you today.
    I first just want to emphasize the administration, through 
the White House task force, is doing everything possible to 
address the risks associated with the virus. And while public 
health is our highest priority, I assure you that we are also 
working on economic programs to support hard-working Americans 
and businesses that are affected by the disruptions associated 
with the spread of the virus. We are also coordinating with 
international organizations and our counterparts.
    The 2021 budget makes clear that we prioritize some very 
important issues. We have $1.6 billion for international 
programs. I would just highlight approximately $1.5 billion for 
the MDBs, as well as $33 million for OTA and $78 million in 
relief for the heavily indebted poor countries.
    I also just want to apologize in advance. I normally 
wouldn't do this, but I may look at my cell phone a couple of 
times during the meeting, given everything that is going on. 
And Chairwoman Lowey, I also want to recognize and thank you 
for the previous work we were able to do together on the 
bipartisan spending bill, and I look forward to Congress 
working together to address these very important issues 
associated with the virus on a timely basis.
    [The prepared statement of Secretary Mnuchin follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairwoman. Well, thank you very much, Mr. Secretary, 
and I know that our work together with the Speaker was really 
invaluable. And you offered such important contributions to the 
effort.
    So welcome today.
    The 10-year Treasury yield fell to a record low due to 
fears about the novel coronavirus. There are concerns of its 
impact on economic growth. I think that is the understatement 
of this hearing.
    Mr. Secretary, how will this affect the economy at home and 
abroad, and are you coordinating with the State Department and 
USAID on how global economic upheaval due to the novel 
coronavirus could impact underdeveloped nations? Is there a way 
to mitigate the impact on U.S. business interests abroad?
    And by the way, I realize that you are right in the middle. 
So all these questions I am sure are on your agenda, and if you 
could share with us some of your thoughts, both here and 
abroad, we would be appreciative.
    Secretary Mnuchin. Well, let me just comment that the 
situation is obviously moving very quickly and rapidly. So we 
are literally meeting every single day, 7 days a week, on this 
on the task force. Steve Biegun from the State Department, the 
Deputy Secretary, is on the task force. I actually was meeting 
with Secretary Pompeo this morning, and we updated each other 
on the issues directly as well.
    So State and Treasury are very much coordinated. We have a 
large team at Treasury, both consisting of international and 
domestic people, looking at these issues. We are coordinating 
on an international basis. We are the host of the G-7. So we 
have been hosting both G-7 calls. We have been having bilateral 
calls. We have had conversations with the IMF and the World 
Bank.
    We are also on a domestic basis in touch with all the 
regulators. I hosted a call yesterday of the President's 
working group, which included all the major regulators. So I 
assure you we are not only focused on the health issues, but 
the economic issues and coordinating across the board on these.
    The Chairwoman. Secretary Mnuchin, I just can't resist 
saying at the outset of this hearing that I appreciate your 
involvement. I know that you, the Speaker, and I work closely 
on many issues as they come forward. I appreciate you being 
here today.
    You should know, as a member of the President's Cabinet, 
that Secretary Pompeo doesn't feel he has any responsibility to 
come before this committee and other committees just to keep us 
abreast of what he is doing. So just thought I would let you 
know, as a member of the Cabinet. And again, we appreciate you 
being here today.
    Climate change. It is a threat to every investment made by 
this bill from natural resources to food security and global 
health to peace building. Yet this administration has 
systematically withdrawn from activities to address climate 
change.
    Businesses here and abroad have experienced the negative 
impacts caused by rising seas, erratic weather patterns, lost 
productivity, and it makes it much more critical to uphold and 
strengthen our multilateral partnerships. The administration 
has justified cutting the United States pledge for the Global 
Environment Facility in half, suggesting that doing so will 
incentivize burden-sharing among other donors.
    Mr. Secretary, given our lack of participation on climate 
change, do our multilateral partners believe we are even 
serious about tackling this problem?
    Secretary Mnuchin. Well, let me first say that the 
President very much cares about the environment and, 
specifically, clean air and clean water, and we are doing 
everything, both domestically and internationally, from a 
technology standpoint and a policy standpoint to focus on clean 
air and clean water.
    I would just also comment, and I don't want to minimize the 
issue of climate change, but I was at Davos last month where 
the only thing people wanted to talk about was climate change. 
And it was a month ago I was emphasizing to people there are 
other very important issues, such as the health issues. I think 
people underestimated globally the impact of this when China 
was quarantining 12 million people.
    So I want to emphasize that we look at the environmental 
issues broadly, and this is one of the important international 
issues, but not the only important international issue.
    The Chairwoman. I appreciate that, and I would be 
interested to know has the administration's approach to really 
beat up on other countries to do more, has he been successful 
in getting others to step up?
    Secretary Mnuchin. Well, I wouldn't use the word ``beat 
up.'' I would use the word ``encourage.'' And yes, the 
President believes in burden-sharing. So whether it is other 
countries paying their fair share of NATO, or it is other 
countries paying their fair share for international 
organizations or doing what they need to do, we have had 
specific conversations with both China and India as a result of 
environmental issues there, and the President is very focused 
on that.
    The Chairwoman. Has their increased participation made up 
the gap from our retreated efforts? Because I understood that, 
when you were saying he was trying to encourage greater 
participation, which is a good thing. But has the gap been made 
up?
    Secretary Mnuchin. I think in most cases, it has. But I 
would also just emphasize, it is not just the contributions of 
money. It is the policies. So the United States is the most 
advanced on clean energy. I think as you look at, you know, 
what we are doing on tax credits for carbon recapture and other 
ideas, I mean, technology is moving quickly. And we are looking 
at technology for efficient and clean energy.
    The Chairwoman. Thank you. Mr. Rogers.
    Mr. Rogers. Mr. Secretary, let me ask you briefly about the 
economic impact. Obviously, we are experiencing some heavy 
interference in the normal business activities because of the 
virus. Should we be getting more help from international 
financial institutions like the World Bank, and should we not 
expect more out of them?
    Secretary Mnuchin. Well, let me just comment that, again, I 
think, as you look at, there is no question that as a result of 
the virus, in many parts of industry, the economic actions are 
actually well in advance of what might be the health issues at 
this time. And there is no question as it relates to both 
domestic and international travel, it is down considerably.
    On an international basis, both the IMF and World Bank have 
committed significant resources. The IMF has made a commitment 
to $50 billion of loans, and again, let me just say these are 
loans, not grants. So we are pleased with that.
    And the World Bank has announced about $12 billion, I 
think, which is split with about $6 billion of loans and $6 
billion of grants. So I think it is important both these 
institutions, we have had conversations with the leadership, 
both bilaterally again, as well as the leadership calls that 
they have hosted. So we are working with them closely.
    Mr. Rogers. What could you tell us about measures currently 
under consideration to stabilize the global economy, both at 
home and abroad? What do you need from us in that vein?
    Secretary Mnuchin. Well, I think, as you know, the 
President's major concern is focusing on the U.S. economy. So 
we do want to make sure we coordinate on an international 
basis, but our first concern is protecting the U.S. economy.
    The immediate issue, and we are working with the Speaker 
and Leader McConnell, and we urge Congress to pass legislation 
quickly. The first priority is funding that will go for small 
and medium-sized businesses that are directly impacted by this.
    There are a large number of workers that are going to be 
required to self-quarantine or be at home to take care of 
family members who are self-quarantined. For small and medium-
sized businesses, we think it is appropriate for the Government 
to pick up those costs. This is a little bit like a hurricane, 
and we need to cover these outside of normal expenses.
    We are also looking to increase SBA lending dramatically. 
We have a current program. We need more authorization for that 
program. We are also looking, and this we can do on an 
administrative basis, we don't need Congress, but we are 
looking at providing substantial relief to certain taxpayers 
and small businesses who will be able to get extensions on 
their taxes. And we think we can provide over $200 billion of 
liquidity into the economy by delaying certain tax payments.
    But we urge Congress to act quickly. The President very 
much wants to consider a stimulus bill, whether it is through a 
payroll tax or otherwise. We realize that may not get done this 
week. So we want to get done what we can do this week, and we 
will come back.
    I will also say there may be specific industries. And I 
want to be clear, this is not bailouts. We are not looking for 
bailouts. But there may be specific industries that are highly 
impacted by travel that have issues with lending, and just like 
after September 11th, the Government authorized certain loan 
guarantees, we may consider that.
    And I would just say the loan guarantees are a very 
effective way of making sure that the Government is paid back 
without putting the Government at risk.
    Mr. Rogers. I would assume that would include the airlines?
    Secretary Mnuchin. I would assume the airlines would be on 
the top of the list, but it would be--again, it may include 
other areas, such as hotels, cruise lines, and others. And 
again, this is something we will be working with industry and 
coming back to Congress.
    But the President feels very strongly that we need to 
protect industry, not bailout, but provide relief to small and 
medium-sized business. And whatever powers we need to make sure 
our airlines and our travel industry can get through this, we 
will.
    Mr. Rogers. This question is going to refer not necessarily 
to the monetary end, but the health side. We are being told 
that large gatherings are not to be attended to avoid passing 
of germs. We have got the National Basketball Association NCAA 
tournament coming up with huge gatherings of fans all across 
the country.
    Do you anticipate that there would be a move to prevent the 
public from going to those ballgames?
    Secretary Mnuchin. Well, let me comment first. I have 
enormous confidence in our professional health professionals. 
This is an area that I haven't previously spent anything like 
this period of time. I am immersed on this in the committee. 
And whether it is the people at CDC, whether it is the people 
at NIH, whether the people at HHS, we have enormous expertise.
    This group is advising the task force and the Vice 
President daily. This group is coming out with guidance to the 
States. I would say in general, most of these decisions will be 
decisions of the Governors on a State-by-State basis. But we 
are--we will be updating the guidance. We are meeting, 
actually, with the President today to give the President an 
update on guidance.
    I am not going to answer your specific question, but I can 
tell you those are the types of things that the task force is 
reviewing. And again, I would say it is mostly--it is most 
likely going to be State-by-State recommendations. So this is 
not a ``one size fits all'' approach necessarily.
    Mr. Rogers. Well, of course, these national associations 
that we are talking about, our national programs like 
basketball, NCAA, is not subject to local control. Governors 
don't control the NCAA. Only national associations that I am 
talking about.
    Do you anticipate that those national associations would 
come to some agreement to restrict the attendance of the public 
at these large sports events, for example?
    Secretary Mnuchin. I am not trying to deflect your 
question. We are addressing these types of issues, and the task 
force will be making recommendations. As you have said, in 
certain cases, these will be Governor decisions. In certain 
cases, they may be Federal decisions. In certain cases, they 
are private decisions.
    So I can tell you private companies, as I have said, have 
already reacted to pretty much canceling all large events. I 
can tell you I saw on the news yesterday Coachella in 
California is postponed until October. So, again, I don't want 
to give you an answer to a specific event, but I can tell you 
these issues are being addressed, and recommendations will be 
made by the task force.
    Mr. Rogers. Mr. Secretary, we appreciate your work. This is 
tough stuff you are going through. And none of us, especially 
you and the administration, have ever been through this before. 
So this is we are in a new field here.
    But thank you for your service, and thank you for staying 
with it.
    Secretary Mnuchin. And again, thank you for saying that. 
And I want to acknowledge these are difficult issues, but I 
also want to just put this in perspective, as I have said 
before.
    Both on the economic side, when there was a financial 
crisis, people were concerned that was going to go on for 
years. This will not go on for years. I am highly confident, 
listening to the medical professionals, that the medical 
approaches will develop quickly in being able to address these 
that, again, this is something we need to deal with for a 
period of time.
    And again, I want to just emphasize for children, this is 
less harmful than the flu. For most young or middle-aged 
Americans, this will be similar to the flu. And that there are 
parts of our population that we are particularly focused on 
that are the elderly, particularly with other issues, that are 
having more impactful.
    But I want to emphasize to the committee and to the 
American public we will get through this.
    Mr. Rogers. Thank you.
    The Chairwoman. Thank you again. Ms. Lee.
    Ms. Lee. Thank you, Mr. Secretary. Good to see you.
    I would like to ask you a bit about Sudan. I visited Sudan 
a couple of months ago with Congresswoman Bass and a bipartisan 
delegation, and we were cautiously optimistic about the 
progress of the new government.
    I have to ask you these questions because Secretary Pompeo 
won't come, and I know some of this jurisdiction is probably 
within State, but I know you do have some jurisdiction with 
regard to terrorist financing and what have you.
    First of all, Sudan is on the list of state sponsors of 
terrorism. We were looking at should we de-schedule or not, and 
we have introduced legislation asking to expedite this review 
process. One of the issues we learned when we were there was 
that it is very difficult to identify any terrorist financing 
because of sanctions and because of multilateral sanctions and 
also because other countries are caught up in the United 
States, of course, sanctions as it relates to, or as a result 
of, state sponsors of terrorism.
    And so, again, I understand the State Department is 
responsible for delisting or de-scheduling if, in fact, that is 
going to happen. But I would like to get your take on the 
sanctions, the multilateral sanctions and the issue of 
terrorist financing because I know that someone, that Mr. 
Marshall Billingslea was in Sudan this past weekend looking at 
this.
    And so how does all of this work with other countries and 
other multilateral organizations because of what the United 
States has not moved forward yet on?
    Secretary Mnuchin. Well, on sanctions broadly, we 
coordinate very, very closely with the State Department. 
Certain of the sanctions authorities are managed by the State 
Department in consultation with us, and certain are the other 
way around. But I assure you, we are very much coordinated. 
Secretary Pompeo and I have specifically talked about these 
sanctions.
    I will also tell you I have spent an incredibly large 
amount of time with both the Foreign Minister of Sudan and the 
Water Minister of Sudan because you may have seen in the press 
at the President's request, I have been helping to negotiate an 
agreement between Egypt, Ethiopia, and Sudan on their dam. And 
I feel that, first of all, let me just say I think the 
government in Sudan is absolutely making the right improvements 
and working in the right direction. We like what they are 
doing.
    I would also say if we can reach an agreement on this dam, 
it will bring tremendous economic benefits to Sudan. The 
creation of electricity, as you know, there are many people in 
Sudan that do not have access to electricity. It will also 
bring important economic help to the region.
    So I can't comment specifically on this, but I can tell you 
we are in direct discussions with the State Department on the 
sanctions.
    Ms. Lee. Sure. But what I wanted to drill down a bit on is 
in terms of terrorist financing, that is within your 
jurisdiction, right?
    Secretary Mnuchin. Yes.
    Ms. Lee. And so I know that this is an impediment, having 
Sudan on the state sponsors of terrorism. How does that work 
with regard to our assessment of whether or not terrorist 
financing is taking place, as well as other countries and other 
multilateral institutions who, as a result of what we are 
doing, they have a problem also?
    Secretary Mnuchin. So we have given very direct input, both 
us and the State Department, to Sudan, what they need to be 
doing. As you said, Marshall, who works for me, was there this 
week. So we have had very direct discussions. In this 
environment, obviously, in an open environment, I cannot go 
through the specifics with you. But we are in very direct 
conversations with the government there.
    Ms. Lee. OK. Then I would like to follow up with you 
because I think, based on what we learned and what we saw, we 
have a very short window to move forward in terms of supporting 
the new government of Sudan or we will see some backwards turns 
in terms of where they are heading.
    On Iran, let me ask you about the maximum pressure campaign 
and the drastic implications it has on the Iranian people now 
in terms of just financing humanitarian imports, given that 
Iran has one of the highest numbers, actually, outside of China 
is one of the epicenters for the COVID-19 virus.
    And so, yes, much of the blame is on the Iranian 
government. But reports indicate that sanctions really may 
inhibit now the importation of test kits and medical equipment 
and medical devices. So can you kind of let me know what is 
taking place in terms of direct assistance maybe to Iran 
through a third country, or what is the status of this, given 
the state of the emergency?
    Secretary Mnuchin. Sure, thank you. That is a very good 
question.
    So our sanctions programs have always allowed for 
exceptions for humanitarian aid and medicine, and our--we have 
always made very clear our issues are not with the people of 
Iran. We want to make sure that they have access to that.
    Even before the virus, we started working on what we call 
the humanitarian channel with the Swiss. Last year, we were 
able to do the first transaction through that. And what that 
means is that countries or entities that want to provide 
humanitarian aid, in essence, if you go through this channel, 
OFAC will, in essence, provide a green light for that 
transaction. It is a heightened due diligence transaction.
    And we did that even before the virus because we wanted to 
make very clear our issue is not with the people of Iran. I can 
tell you I have made very clear at the G-7 and the G-20, again 
that that channel is open, that people that want to, 
particularly as a result of the virus, contribute to Iran, we 
support the people of Iran. Our issue is with the government of 
Iran, and they are using the people's resources on nuclear 
development.
    Ms. Lee. OK. If we have a second go-around, I have another 
question that I would like to ask you later.
    Thank you, Madam Chair.
    The Chairwoman. Thank you. And following up on your 
question, the fact that last week the Treasury Department 
decided to exempt humanitarian trade involving the Central Bank 
of Iran from economic sanctions in light of the coronavirus. 
How is Treasury planning to ensure that the Central Bank of 
Iran uses this humanitarian exception appropriately?
    Secretary Mnuchin. We would be happy to follow up with your 
office because it is a long and technical answer. But the 
answer is we have put through on this Swiss channel what we 
call ``heightened due diligence.'' So it allows OFAC to have 
complete visibility to where the money is coming from, where 
the money is going to, and for us to make sure it is not 
diverted for illicit activity and things that should be 
sanctioned.
    But we would be happy to follow up on a technical basis and 
explain that to your staff.
    The Chairwoman. Thank you. That would be very helpful.
    Oh, Ms. Meng, I think you are next.
    Ms. Meng. Thank you, Madam Chair. Thank you, Mr. Ranking 
Member. And thank you, Secretary, for being here today and for 
your leadership during this difficult time.
    I wanted to ask about a letter I wrote to you in December, 
expressing concern about an American Muslim woman from New York 
City who used her Venmo account to pay for a meal at a 
Bangladeshi restaurant named al-Aqsa restaurant. She was soon 
contacted by Venmo to ask for a full explanation of her 
transaction.
    And what we have been hearing is that this is part of a 
larger trend in which banks have closed, often without 
justification, credit and bank accounts of customers perceived 
as Muslim. And for an American Muslim or anyone to learn that 
their account, including identifying personal and financial 
information, has been flagged to OFAC based on simple search 
terms that implicate them in terrorist activities is 
unsettling.
    According to your office's response--and thank you for the 
response--OFAC encourages companies to use the specially 
designated national and blocked persons list to employ a risk-
based approach to sanctions compliance but does not mandate or 
require any specific screening regime or stipulate specific 
terms for our financial institutions to use.
    So my question is when a Venmo or a PayPal account is 
flagged for the inadvertent use of a term that is on that SDN 
list, what personal information from that account, if any, does 
OFAC retain, and is that information used for any other 
purpose?
    Secretary Mnuchin. I actually do read the letters that you 
all send to me. So I want you to know that. I don't always 
remember every single letter, but I actually do remember your 
letter. My team just handed it to me, but I don't need to look 
at it because it was one of those letters that was very 
specific. And I do remember I inquired with our team about and 
saw our response.
    I don't know the exact answer to what you are describing 
because it is highly technical, but I will ask my team to 
follow up. But I was assured when I reviewed this that this was 
not as a result of something that OFAC was doing.
    Ms. Meng. OK, sure. I would love to follow up because I 
think people are just very nervous. This was in this case a 
young girl, woman who was just going out to eat at a restaurant 
with her local friends and was just trying to Venmo the money 
back to her friend to repay.
    And well, can I ask, will OFAC work with companies like 
Venmo to ensure that they are using smarter technology to 
contextualize transaction descriptions that might overlap these 
types of terms in order to avoid infringing on the privacy of 
users who are clearly not supporting terrorist organizations?
    Secretary Mnuchin. Let me just emphasize it is unfortunate 
of this specific situation, and when I looked into this, I 
wanted to make sure. OFAC puts out guidelines, and I don't 
think anything in the OFAC guidelines is what caused this. We 
put out guidelines how people administer the BSA and the 
sanctions list.
    Obviously, we encourage companies to have different 
approaches. So I am not sure it is OFAC's job to go out and fix 
every single company's issues, but I assure you there is 
nothing in OFAC's guidelines on that we think would encourage 
this type of behavior. And as I said, we will follow up with 
you more on the specifics.
    Ms. Meng. Thank you. I appreciate that.
    My other question is coronavirus related. I know that you 
have been named as a member of the President's coronavirus task 
force. I wanted to ask about comments. Last week, Lea 
Gabrielle, the coordinator of the Global Engagement Center, 
warned that Russia is coordinating millions of online false 
personas that seek to spread misinformation about the virus. 
What is the task force doing to combat this and to ensure that 
accurate information about this pandemic is the prevailing 
online narrative?
    I am concerned that the President's comments, which have 
gone against CDC guidance that coronavirus isn't really 
dangerous, that people with minimal symptoms should continue to 
go to work, that those comments would feed into this Russian 
propaganda threat.
    Secretary Mnuchin. I don't think that the President's 
comments are inconsistent with the guidance. What I would say 
is that this situation is evolving very, very quickly, and 
the----
    Ms. Meng. Sorry, Secretary. He has made comments that 
people with coronavirus could and should continue to go to work 
and that the coronavirus isn't really dangerous.
    Secretary Mnuchin. I don't believe he said that people with 
the coronavirus should go to work. I think what he said was 
that for most people, OK, that they can go about their 
business, that the coronavirus, OK, that the risk for most 
people getting it is very low. And if someone gets it, it is 
very low. That is still true.
    Having said that, our guidance is now more specific. There 
are areas of the country where the guidance has changed. And 
again, this guidance has been reviewed with the President, and 
he agrees with that. It is now much more specific.
    And as it relates to the first part of your question, I am 
not familiar with that, but I don't consider that to be the 
task force responsibility, but I can assure you the intel 
community looks at those types of things. Again, I am not 
familiar with it and can't opine on it. But what you are 
referring to sounds more like an intel community issue than a 
task force issue.
    Ms. Meng. My time is up. Thank you. I yield back.
    The Chairwoman. Ms. Frankel?
    Ms. Frankel. Good morning. Thank you, Madam Chair.
    Thank you, sir, for being here.
    I want to pick up on some of the coronavirus questions. So 
what industries do you expect are going to be hardest hit?
    Secretary Mnuchin. I think at this point, it is clear that 
the travel industry in particular is going to be the hardest 
hit. That what we are seeing is similar to after 9/11, there is 
a big impact on airline travel. Unlike a recession where 
airlines lower the price of tickets and more people fly, this 
obviously, we just have a complete decrease in volume.
    So as I said earlier, there may be needs to come back to 
Congress like we did after September 11. And again, I don't 
want to--this is not a bailout. This is considering providing 
certain things for certain industries.
    So I would say, you know, airlines, hotels, cruise lines I 
believe are the areas that are impacted. But again, our focus 
is also on small and medium-sized businesses that are 
particularly associated with these industries.
    There are many industries that will go on fine. Many 
industries can telecommute very easily. Many areas of the 
country still don't have cases or have very few cases. So, 
again, this is something we are going to have to look at very 
specifically.
    Ms. Frankel. I am sorry, Madam Chair, if I am repeating 
some questions that were asked. But what are some of the ideas 
that you are circulating in terms to help these industries?
    Secretary Mnuchin. Right now, our focus--and again, I would 
kind of say this is the first and second inning. Right now, we 
are working with Congress on making sure that we can reimburse 
workers who have to be home on sick leave, OK? For many times, 
they are quarantined for 2 weeks. They may or may not even be 
sick. They may have been in contact with someone who is sick--
--
    Ms. Frankel. So, excuse me, just to reclaim. So that would 
be something like paid family leave? I am assuming that is 
something I know I have heard the President mention. Is that 
something that is on your list of----
    Secretary Mnuchin. It is, and I have spoken to the 
President and the Speaker and others about that, and that is 
what is being worked on immediately.
    Ms. Frankel. And what would be the form of the payment in 
the plan that you are working on? Where would the money come 
from?
    Secretary Mnuchin. Well, the money would come from the 
Federal Government. We are actively looking at how we disburse 
it. There are alternative mechanisms that we are exploring on 
how we can most effectively disburse. But this would be the 
Federal Government reimbursing companies so that they could pay 
the workers, and whether the money goes direct to the workers 
or the money goes to those companies to the workers, we are 
figuring out the most efficient way----
    Ms. Frankel. Well, let us just make sure that--first of 
all, I think this is a good thing to be looking at paid family 
leave. I just want to make sure that the workers actually get 
it. Which gets me to the next--there had been some talk about a 
payroll tax cut, and I have a question relative to that because 
I think would--this sounds sort of----
    Well, let me just ask the question. A payroll tax cut could 
actually encourage someone who was sick to come to work?
    Secretary Mnuchin. No, I don't see that as the case at all.
    Ms. Frankel. Let me ask you that question a different way 
because I want to be fair here. What do you think a payroll tax 
cut would do in this environment?
    Secretary Mnuchin. There are two ways of dealing with the 
issue. One is dealing with very specific issues, as I have just 
said. A person is in home quarantine, they are not even sick. 
They are in home quarantine because they randomly came in 
contact with someone.
    They work for a small business. They don't get covered. We 
think those people should be covered. That is very direct. So 
there are----
    Ms. Frankel. Be covered by what?
    Secretary Mnuchin. They should--the Federal Government 
should make sure those people get paid for those 2 weeks.
    Ms. Frankel. So that is--OK.
    Secretary Mnuchin. So there are some very specific things.
    Ms. Frankel. I could agree with that.
    Secretary Mnuchin. OK. As it relates to there are other 
issues where the entire economy is slowing down, again only 
because not because of a specific issue that anybody is sick. 
Because every company in the U.S. right now is stopping travel, 
stopping meetings, and everything else. That has impacts on 
restaurants, hotels, everything.
    Ms. Frankel. I understand that, but just get to the payroll 
tax cut. How would that help?
    Secretary Mnuchin. The payroll tax cut, the payroll tax cut 
is a stimulus mechanism of putting money into the economy.
    Ms. Frankel. But is that why--oh, I am sorry to interrupt 
you. That is why putting--that puts money into the individual 
worker's pocket. Is that correct?
    Secretary Mnuchin. That is correct.
    Ms. Frankel. OK. So I am just putting this out there. I am 
going to ask you this question. Do you have to come to work or 
not? Do you have to come to work to earn the money for the 
payroll tax cut, or are you thinking of a scheme where you were 
going to get that money regardless of whether you come to work?
    Secretary Mnuchin. Well, I don't like the word ``scheme''--
program.
    Ms. Frankel. Program, program. Program, program.
    Secretary Mnuchin. Again, let me just say there are two 
different things, and I want to emphasize this, and it is an 
important issue to understand.
    Ms. Frankel. Yes, OK.
    Secretary Mnuchin. I want to emphasize this.
    Ms. Frankel. Thank you.
    Secretary Mnuchin. One is there are people who we are 
encouraging not to come to work, OK, because based upon State 
guidance and CDC guidance those people should be in self-
quarantine. We don't want to penalize those people from not 
getting paid if their company is not covering it.
    Ms. Frankel. Right.
    Secretary Mnuchin. JP Morgan and the big banks are covering 
it. We don't need to reimburse them.
    Ms. Frankel. So you want to give them some money back, and 
I am sorry to keep----
    Secretary Mnuchin. I want to make sure that those hard-
working Americans get paid for the 2 weeks----
    Ms. Frankel. And how will that happen? What are the ideas 
for that?
    Secretary Mnuchin. I have just said to you there are two 
ways of distributing the money. One is directly to that person 
in the form of a debit card or a direct deposit.
    Ms. Frankel. Got it.
    Secretary Mnuchin. The other is making sure that the 
companies continue to make those payments and that the company 
will be reimbursed. The only difference is we are just trying 
to figure out very quickly mechanically how we can do it. It is 
not a philosophical question.
    Ms. Frankel. OK, but that is not a payroll tax cut.
    Secretary Mnuchin. That is not. The payroll tax cut has 
nothing to do with whether you are home sick. The payroll tax 
cut is money--it is an efficient way of getting money to all 
the hard-working Americans.
    Ms. Frankel. But you have to come to work to earn that 
money. Correct?
    Secretary Mnuchin. Let me be clear, OK? If you are home 
because you are in a sick situation, you would get that money 
as well. That money would go--that money goes to everybody 
across the board to stimulate the economy. So it doesn't in any 
way encourage you you have to work or you don't have to work. 
It is completely independent.
    Ms. Frankel. All right. Yes, I think I have used up my 
time.
    Thank you, Madam Chair. I yield back.
    The Chairwoman. Mrs. Torres?
    Mrs. Torres. Thank you, Chairwoman.
    And thank you for being here with us once again.
    I want to continue on a little bit just because I think it 
is really important. Constituents that I represent don't get to 
have an audience with you. So that is my job to do. China shut 
down a lot of its shipments into the Port of L.A. and Long 
Beach. My constituents work when shipments are coming in or 
leaving to those locations.
    So let us just take Amazon as an example. There are 
employees that work directly for Amazon. I assume those 
employees will be taken care of. But there are contractors that 
do data entry for Amazon whose contracts have already been 
canceled. Many of them are independent folks. Gig workers such 
as Uber drivers are already being impacted because, as you have 
stated, there are cancellations of conferences and different 
things.
    As an example, coming here on Sunday night from Dulles to 
DC, my Uber driver worked 12 hours on Saturday night, and he 
earned $60. So this is not someone who is just sitting at home, 
waiting to be called back to be returned to work. It is simply 
there is no work out there for them.
    I want you to think about it from the perspective of when 
the bottom fell out of the housing market. We want to make sure 
that we are protecting people that need to pay rent, that need 
to pay their mortgage, and I want to applaud the effort that 
you have talked about to temporarily halt payments to the IRS 
that are due April 15. That is a good step in the right 
direction.
    But I want to make sure that while we are looking to--and I 
know you don't want to use ``bailout.'' But while we are 
looking to assist the airline industry and major cruise 
airlines, I am not going to vote for a bill that comes before 
me that does not include the poor working people that I 
represent or the people that I come across every single day. I 
just want to make sure that you understand that. That is going 
to be what I am looking at very, very closely.
    Secretary Mnuchin. I appreciate that, and let me just 
emphasize that is also the President's No. 1 concern.
    Mrs. Torres. Thank you.
    Secretary Mnuchin. So, as I said, I want to emphasize it is 
critical that Congress act quickly. This isn't going to be the 
first time--I mean, this isn't going to be the last time we do 
this. So we want to get something done quickly, but I can 
assure you we are going to be back one, two, three, four times.
    The hard-working people, small and medium-sized independent 
people that are directly impacted by this, OK, that is where we 
need to provide economic support. And the President and I agree 
with you 100 percent.
    Mrs. Torres. I also----
    Secretary Mnuchin. I have addressed people who may be home 
because they are sick. There are also areas, as you said, where 
kind of having no fault of theirs, because travel has shut 
down, all of these other people that work around these 
industries will need to be helped.
    Mrs. Torres. It is also my job to ensure that you are 
addressing public corruption in the Northern Triangle, and so I 
want to discuss OTA, what OTA has done in Central America. 
Migrants continue to come north. The government in Honduras is 
maxed out on corruption. I don't know that there has been an 
envelope that hasn't been given to the president that he has 
not accepted in cash payment.
    So in your 2019 project report, we saw that OTA engaged 
with Guatemala and Honduras, but not on issues of economic 
crime. Whereas, OTA worked with other countries on money 
laundering and anti-corruption measures. Is OTA really 
interested in dealing with the root causes of migration in 
Central America?
    Secretary Mnuchin. I think they are, and I think OTA 
provides very important resources, and we appreciate the 
committee funding it. And as to the specifics of what you are 
talking about, we are happy to follow up with your office.
    Mrs. Torres. You are asking for an increase, $33 million in 
fiscal year 2021. So what kinds of programs does OTA plan to 
use that funding for, and would OTA look into using this 
funding to increase the work within the Northern Triangle, 
including Panama?
    We talked about a lot of letters that come to your desk. I 
wrote a letter in November of 2017. The NGO Global Witness 
alleged that there was drug trafficking and money laundering 
that occurred that might have involved the Trump Ocean Club 
Panama. I still haven't heard anything on that.
    So I want to make sure that we are focused. If you are 
asking for an increase, that that increase is going to be to 
deal with crimes of public corruption and drug trafficking as 
it relates to money laundering.
    Secretary Mnuchin. I agree, and we will follow up with you.
    Mrs. Torres. Thank you. I yield back.
    The Chairwoman. My friends, I think we will do another 
round, although, Mr. Rogers, you are sitting there lonely. I 
will ask a question, then I will turn it over to you.
    One of my favorite issues not because they are so 
successful, but I keep trying to get information and hope they 
will be successful, and that is the Office of Technical 
Assistance. The Office of Technical Assistance often sends 
technical advisers to work beside officials in host countries 
for an extended length of time in order to help improve their 
capacity to manage public finances.
    I would be interested to know if there are partnerships 
that have worked according to your standard. Are they achieving 
the intended objectives? How does this support help keep 
countries from falling into debt traps? And how does it decide 
where to engage?
    For example, your office, this office I believe was 
involved in Afghanistan when Ashraf Ghani took control. Many of 
us had great hopes for Ashraf Ghani because of his prior work 
experience. Just as an example, if you could discuss that or 
any other area where perhaps you can share some successes of 
this office?
    Secretary Mnuchin. Well, I----
    The Chairwoman. I see you are smiling.
    Secretary Mnuchin. I am smiling because Afghanistan is 
obviously a complicated situation an----
    The Chairwoman. You can use other examples of this office.
    Secretary Mnuchin. I am sorry. This office is OTA, or this 
was the----
    The Chairwoman. It is the Office of Technical Assistance.
    Secretary Mnuchin. Yes. So I think there is really in many 
places, let me just check. I think, again, we had a question 
earlier on the Northern Triangle, but El Salvador, Guatemala, 
Honduras. I know there are countries in Africa. I know there 
is--really, this has been a project where I really think it has 
been successful all over the world.
    And the real issue for us is it is only $33 million, and we 
have to figure out how we limit our resources because I 
constantly have countries who ask us for technical assistance. 
So whether it is around raising revenues or other issues, this 
is--you know, we have asked for a small increase, but this is 
something that we think is well paid for.
    The Chairwoman. I would appreciate it. To me, this is one 
of the most important functions, and I would appreciate 
following up with you. If there are examples of success, how 
did it work? What happened?
    Northern Triangle was another story. This committee was 
pretty outraged. The Government--our Government just held up 
the money for 6 months.
    Secretary Mnuchin. I understand.
    The Chairwoman. We never sent the money over there. I don't 
know if you had anything to do with it, but if you did I would 
love for you to have the opportunity to tell me about it.
    Secretary Mnuchin. I had no involvement in it. And let me 
just make--I think I made a comment earlier, and somebody in 
the room must have picked up. I was referring to our No. 1 
economic priority was on small and medium-sized businesses. 
Someone interpreted that I think incorrectly in the room back 
there. Our No. 1 priority is obviously protecting health and 
human life. I was only referring to the economic issues.
    The Chairwoman. But in any event, I would like to follow up 
on OTA, and I think it would be helpful for us--oh, my 
goodness, isn't that good? So your staff is giving you some 
additional information.
    Secretary Mnuchin. What we are going to do is I will send 
you a report that you can distribute to the committee that has 
a full analysis over the last year, these are the countries we 
have provided assistance, and this is what we have done. So 
there is complete transparency, and the committee can 
understand that.
    The Chairwoman. And in fact, it doesn't have a huge amount 
of funds. But these services, in my judgment, have been 
desperately needed in so many parts of the world. And it would 
be very good if, in fact, you can give us examples of success 
and where we can use these principles----
    Secretary Mnuchin. We will absolutely do that. And you 
know, I am known as a micromanager, but this is something that 
is actually even below my radar. So we will provide you the 
report.
    The Chairwoman. I am known as a micromanager, too. But I 
really don't know of examples of success there. So I thank you.
    Mr. Rogers?
    Mr. Rogers. Thank you, Madam Chair.
    Mr. Secretary, as you know, China's Belt and Road 
Initiative has both undermined U.S. influence and brought with 
it a wide range of problems associated with corruption and debt 
burdens. Many have focused on the new U.S. International 
Development Finance Corporation as the principal means by which 
the U.S. can counter China's lending model.
    While the DFC is an important tool, we need everyone 
working toward this effort in a concerted way. In this regard, 
how can Treasury help shape the rules of the road and bring 
greater transparency to China's opaque practices abroad?
    Secretary Mnuchin. As you mentioned, the U.S. Development 
Finance Corp, it is one of our tools. But that is just one of 
our tools. And we are very focused, both at the IMF and the 
World Bank, on debt transparency. We think this is critically 
important. And in certain programs, we have required in these 
institutions for the countries to get the programs renewed that 
we had complete debt transparency as related to loans with Belt 
and Road in China.
    And I want to be perfectly clear. We are not using and we 
are not ever going to be using money from these international 
organizations to pay back China.
    Mr. Rogers. How do you see the role of the World Bank and 
the Asian Development Bank countering the China model in the 
Indo-Pacific region?
    Secretary Mnuchin. Well, I think the World Bank in 
particular is incredibly important, and this has been a great 
institution, post war institution. The U.S. has shown great 
leadership. We are very pleased that David Malpass, who used to 
work for me at Treasury, is now leading the organization. He 
has been moving forward many reforms, and we think that it is a 
great source of funds to countries that need it.
    Mr. Rogers. Switching subjects, Mr. Secretary, last year as 
we hosted the eighth annual national Rx Drug Abuse and Heroin 
Summit in Atlanta, at which the President and First Lady 
attended--and by the way, the ninth edition of that summit is 
coming up in early April, becoming now the premier place for 
the discussion of opioid research.
    I know combatting the flow of fentanyl and other opioids 
into the U.S. has been a top priority of this administration, 
and we thank you for that. I am cautiously optimistic that we 
are making some progress with China on fentanyl and other 
opioid issues, and I hope you agree.
    I know that Treasury's Office of Foreign Assets Control has 
used the Foreign Narcotics Kingpin Act to target the assets of 
Chinese fentanyl traffickers. What can you tell us about this 
effort and the efforts of the men and women working on issues 
of terrorism and financial intelligence to help break these 
trafficking networks?
    Secretary Mnuchin. Thank you.
    I think this is an issue that is very important to the 
President, as you know. China has made significant progress. 
That is the result of at one of our summits, President Trump 
specifically asked President Xi to change the laws, which he 
agreed to do and has been working with us.
    Notwithstanding that, there are times where there are 
things going on that they even can't control, and OFAC will use 
its tools, as you have identified, to do whatever we can to 
stop illicit activities.
    Mr. Rogers. Well, the experts tell us that within the world 
of opioids and look-alikes that fentanyl is by far the most 
deadly and the one most difficult to stop. So I appreciate the 
work that you are doing and the administration in fighting this 
fight. It is way from over.
    We need to keep more pressure on the Chinese because that 
is where all of the fentanyl is coming from. It is not just a 
piece of the world. It is the world of fentanyl. And we ask you 
to keep up the good work.
    Madam Chair, I yield back.
    Thank you, sir.
    The Chairwoman. Ms. Lee?
    Ms. Lee. Thank you very much.
    OK. Mr. Secretary, let me ask you a couple of questions. 
One is you are on the interagency task force, right, as it 
relates to COVID-19?
    Secretary Mnuchin. Yes, the White House task force.
    Ms. Lee. Yes, OK, White House task force. Excuse me. I 
asked Dr. Redfield yesterday about this. Every committee 
hearing I am attending I am asking, so I can wrap my hands 
around what is going on as it relates to hand sanitizers. And 
Dr. Redfield said yesterday it was the White House task force 
that was looking at this or responsible for it. CDC did not 
know the lack of availability.
    First of all, when you look at the directives from CDC and 
our health agencies, the directives are in terms of prevention 
of the transmission or contracting the virus is washing one's 
hands at least 20 times. But secondly, if that is not 
available, and a lot of places don't have clean water, use the 
hand sanitizers.
    Well, first of all, if you can't find the hand sanitizers. 
And you know, I have been in 3 cities in the last 7 days. None, 
there are no hand sanitizers available. What does one do?
    I started looking and doing some research and found that 
now people are making their own, using alcohol and aloe vera. I 
guess sooner or later, alcohol will not be available.
    What is the task force doing in terms of the supply chain 
and the directives for people in terms of the public health 
directives are useless if, in fact, you can't find hand 
sanitizers. And Dr. Redfield said the task force is responsible 
for this.
    Secretary Mnuchin. First of all, let me say thank you for 
raising the topic. I think on the hand washing, I just want to 
clarify, I am not 100 percent sure, but I think you are 
supposed to wash your hands for 20 seconds.
    Ms. Lee. I mean--what did I say, 20 minutes?
    Secretary Mnuchin. Twenty times.
    Ms. Lee. Twenty times. Twenty seconds, excuse me.
    Secretary Mnuchin. I just wanted to, for everybody's 
benefit, clarify that.
    Ms. Lee. Twenty seconds.
    Secretary Mnuchin. It may end up being you wash your hands 
20 times a day as well.
    Ms. Lee. Or more.
    Secretary Mnuchin. Specifically, I will follow up on this. 
The answer is we have the task force. There are then 
subcommittees of the task force. I am sure somebody is looking 
at this. I will follow up.
    Ms. Lee. I hope so, but no one has been able to answer, and 
I am getting ready to go to Ag, and I understand FDA now is the 
authority.
    Secretary Mnuchin. Well, we are having a committee meeting 
this afternoon. I assure you I will address it.
    Ms. Lee. You will do that, and would you let us know the 
response right away because people are becoming very concerned 
about this.
    The second question I have is just going back to Iran and 
secondary sanctions. If banks can't purchase humanitarian 
supplies, medical supplies, how are what we are doing allowing 
these supplies to be distributed in Iran, given the emergency? 
So how do secondary sanctions weigh in with this?
    Secretary Mnuchin. Both primary sanctions and secondary 
sanctions, there are exemptions for humanitarian transactions. 
So banks are able to participate. And again, these transactions 
need to be properly vetted.
    Ms. Lee. Sure.
    Secretary Mnuchin. And the reason why we set up the Swiss 
channel, but the answer is in this case of this channel, 
obviously, banks are involved. And again, if you go through the 
Swiss channel, effectively you get a Good Housekeeping seal of 
approval, and the bank doesn't have risk for that transaction.
    Ms. Lee. OK.
    Secretary Mnuchin. So that is why we wanted to facilitate 
that.
    Ms. Lee. Thank you very much.
    The Chairwoman. Secretary Mnuchin, I know how busy you are. 
I want to thank you for your time. I want to thank you for 
appearing before us.
    And this concludes today's hearing.
    Secretary Mnuchin. Thank you for letting me out early.
    The Chairwoman. The Subcommittee on State, Foreign 
Operations, and Related Programs stands adjourned.
    Thank you so much for being here today.
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
</pre></body></html>
